<html>
<title> - GOALS AND PRIORITIES OF SOUTH DAKOTA TRIBES</title>
<body><pre>[Senate Hearing 107-770]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-770
 
              GOALS AND PRIORITIES OF SOUTH DAKOTA TRIBES

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

 TO RECEIVE THE VIEWS ON THE GOALS AND PRIORITIES OF THE SOUTH DAKOTA 
                                 TRIBES

                               __________

                           SEPTEMBER 14, 2002
                             RAPID CITY, SD


82-939              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. INOUYE, Hawaii, Chairman

            BEN NIGHTHORSE CAMPBELL, Colorado, Vice Chairman

KENT CONRAD, North Dakota            FRANK MURKOWSKI, Alaska
HARRY REID, Nevada                   JOHN McCAIN, Arizona,
DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
PAUL WELLSTONE, Minnesota            CRAIG THOMAS, Wyoming
BYRON L. DORGAN, North Dakota        ORRIN G. HATCH, Utah
TIM JOHNSON, South Dakota            JAMES M. INHOFE, Oklahoma
MARIA CANTWELL, Washington

        Patricia M. Zell, Majority Staff Director/Chief Counsel

         Paul Moorehead, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Bourland, Gregg J., chairman, Cheyenne River Sioux Tribe.....    14
    Chytka, Ellsworth, spokesperson, Yankton Sioux Tribe.........     9
    Duke, Ron, Oglala Sioux Tribe, chairman, Oglala Nation 
      Education Coalition........................................    23
    Grey, Andrew J., chairman, Sisseton-Wahpeton Tribe...........     3
    Holy Rock, Johnson, Oglala Sioux Tribe.......................    22
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii, chairman, 
      Committee on Indian Affairs................................     1
    Iron, Tom, vice chairman, Standing Rock Sioux Tribe..........    26
    Jandreau, Michael, chairman, Lower Brule Tribe...............    28
    Johnson, Hon. Tim, U.S. Senator from South Dakota............     1
    Kindle, William, president, Rosebud Sioux Tribe..............    18
    Ranfranz, Thomas, president, Flandreau Santee Tribe..........     5
    Steele, John Yellow Bird, president, Oglala Sioux Tribe......    21
    Taken Alive, Jesse, councilman, Standing Rock Sioux Tribe....    30
    White Lightning, Allan, Native American Veteran..............    29

                                Appendix

Prepared statements:
    Bourland, Gregg J............................................    62
    Chytka, Ellsworth............................................    41
    Jack, Lyle, member, Oglala Sioux Tribal Council..............    48
    Jandreau, Michael............................................    46
    Murphy, Charles W., chairman, Standing Rock Sioux Tribe (with 
      attachments)...............................................    68
    Ranfranz, Thomas.............................................    50
    Steele, John Yellow Bird.....................................    44
    Taken Alive, Jesse...........................................    47
    Ta-Sunka-Luzahan, Celestia Agnes, member, Oglala Sioux Tribe.   105

Note: Other material submitted for the record retained in 
  committee files.


              GOALS AND PRIORITIES OF SOUTH DAKOTA TRIBES

                              ----------                              


                      SATURDAY, SEPTEMBER 14, 2002


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Rapid City, SD.
    The committee met, pursuant to notice, at 2 p.m. in the 
Central High School Cafeteria, 433 Mount Rushmore Road North, 
Rapid City, SD, Hon. Daniel K. Inouye (chairman of the 
committee) presiding.
    Present: Senators Inouye and Johnson.

 STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM HAWAII, 
             CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. The Senate Committee on Indian Affairs is 
convening this hearing in Rapid City at the request of your 
respected Senator, Senator Tim Johnson. We are here to receive 
testimony on the goals and priorities of the tribal governments 
that make their home in what is now the State of South Dakota, 
but which was once all Indian country.
    I am especially pleased to be in the land of the great 
sacred place. We are here in recognition of your sovereignty, 
your government-to-government relationship with the United 
States, and we are here because we have two great men who 
represent you in the U.S. Senate who are among the strongest 
advocates in the Congress for your rights as sovereign nations 
and as native people.
    I am honored this afternoon to share this table with 
Senator Tim Johnson because as you know, both during his tenure 
in the House of Representatives and now in the U.S. Senate, he 
has worked tirelessly to champion your cause and there can be 
no doubt that he cares and cares deeply about the native people 
of South Dakota.
    So before I call upon the witnesses to receive their 
testimony, I am pleased and honored to call upon your 
colleague, my colleague on the Committee on Indian Affairs, and 
my friend and your friend, Senator Tim Johnson.
    Senator Johnson.

 STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Thank you.
    Chairman Inouye, it is an honor and pleasure to welcome you 
to South Dakota. Thank you for holding this oversight hearing 
on the goals and priorities of the great Sioux Nations of South 
Dakota. I am honored to serve with you as a member of the 
Committee on Indian Affairs. Your leadership in Indian country 
is appreciated and South Dakota is blessed to have you here 
today.
    I would also like to welcome Patricia Zell, the staff 
director and chief counsel of the Senate Committee on Indian 
Affairs. Patricia has advised Chairman Inouye for many years. 
Welcome to South Dakota, Chairman Inouye. I commend you and 
your staff for having this hearing in South Dakota today.
    Representing the State of Hawaii in his seventh consecutive 
term in the Senate, Chairman Inouye is a powerful Senator, war 
hero, lawyer, public servant, and truly a gentleman. I want to 
share with my fellow South Dakotans a part of Senator Inouye's 
story, because like so many young South Dakota men and women 
who have served their country, so too has Chairman Inouye. Many 
I think are aware of the fact that Senator Inouye is a war 
hero, but I think sometimes people have not understood the true 
dimensions of his heroism. In Italy in 1944, after Senator 
Inouye's unit was shifted to that area of the world, rescuing a 
Texas battalion surrounded by German forces, his unit, the 
442d, was assaulting the heavily defended hill in the closing 
months of the war, when then-Lieutenant Inouye was hit in his 
abdomen by a bullet which came out his back, barely missing his 
spine. He continued to lead the platoon and advance the line 
against a machine gun nest which had his men pinned down. 
Chairman Inouye tossed two hand grenades with devastating 
effect before his right arm was shattered by a German rifle 
grenade at close range. Inouye threw his last grenade with his 
left hand, attacked with a submachine gun, and was finally 
knocked down the hill by a bullet in the leg.
    Dan Inouye spent 20 months in Army hospitals after losing 
his right arm. On May 27, 1947, he was honorably discharged and 
returned home as a captain with a Distinguished Service Cross, 
Bronze Star, Purple Heart with cluster, and 12 other medals 
with citations. His Distinguished Service Cross has recently 
been upgraded to Medal of Honor, the Nation's highest award for 
military valor. He received that medal from the President of 
the United States in June 2000.
    Chairman Inouye is a champion of the interests of Native 
Americans throughout his career. He has also played a major 
role in shaping the defense policies of the United States and 
has worked to strengthen the armed forces and enhance the 
quality of life for military personnel and their families.
    Again, I am delighted that Chairman Inouye is here in my 
home State. I am honored to share the podium with him, and I am 
pleased to see that many people have traveled great distances 
to be here today to share their testimony, whether written or 
in person. I am also pleased to see Chairman Gray, President 
Ranfranz, Chairman Bourland, President Kindle, President 
Steele, and President Jandreau. I look forward to hearing your 
messages from your reservations, and I know you have much on 
your mind, such as health care, trust reform, education, and 
adequate funding for tribal colleges.
    I think we would also all agree that one of the most 
important things we can do in the long run is to improve the 
private sector economy in Indian country. As the chairman of 
the Senate Banking Subcommittee on Financial Institutions, I 
was proud to hold a hearing earlier this year at which Chairman 
Jandreau testified. The focus was on efforts to improve private 
investment and address economic challenges in Indian country. 
As a member of the Senate Appropriations Committee, I have had 
an opportunity to work with the leadership of all nine tribes 
in South Dakota to improve infrastructure and address many of 
the key problems facing Indian country. Along with our help in 
the Senate and your leadership on your reservations, we can 
work together with the people we represent.
    I am also pleased to see local citizens from Rapid City 
here today, too. I would like to acknowledge Stan Adelstein, 
State Representative from Rapid City and vice chairman of the 
legislature's State/tribal committee, and Phil Hogen, nominee-
select for chairman of the National Indian Gaming Commission. 
His wife is a schoolteacher here at Rapid City Central High 
School. It is nice that all of you can join us here today. 
Welcome to this hearing, and indeed welcome to all.
    Thank you, Senator Inouye. I look forward to hearing from 
the witnesses at this time.
    The Chairman. Thank you for those very generous remarks. 
Since you brought it up, I would like to salute all the 
veterans of the many wars that we have participated in. I am 
certain that many of you are aware that in the last century and 
in the early days of this century, on a per capita basis more 
Native Americans have put on the uniform of this land than any 
other ethnic group in our Nation.
    [Applause]
    The Chairman. This is truly the land of the brave, and as 
chairman of the committee and as chairman of the Defense 
Appropriations Subcommittee, I salute all of you.
    Our first panel consists of the chairman of the Sisseton-
Wahpeton Tribe of Agency Village, SD, Andrew J. Grey; the 
president of the Flandreau Santee Tribe of Flandreau, SD, 
Thomas Ranfranz; the chairwoman of the Yankton Sioux Tribe of 
Marty, SD, Madonna Archambeau; and the spokesperson of the 
Yankton Sioux Tribe, Ellsworth Chytka.
    May I first recognize Chairman Grey.

 STATEMENT OF ANDREW J. GREY, CHAIRMAN, SISSETON-WAHPETON TRIBE

    Mr. Grey. Good afternoon. Senator Inouye, Senator Johnson, 
and all the people here, I would like to say [Native language 
greeting], with a good heart, I greet you.
    We have a lot of issues and concerns already of being a top 
priority. Among these priorities are the issue of trust land 
and treaty, health care. On some of those I will touch upon 
lightly.
    First, I would like to talk about trust land and treaty. As 
a treaty tribe, the Sisseton-Wahpeton Sioux Tribe is concerned 
with trust reform going on with the Bureau of Indian Affairs. 
This area has approximately 37 percent of the trust land in the 
United States. The tribes want input into the reorganization to 
ensure Indian preference in the hiring of staff and the 
protection of the fiduciary relationship that exists with the 
tribes and the Federal Government. As a tribe, we are suspect 
of the Federal Government reform for the, quote, ``good of 
Indians,'' unquote. The tribes view a first draft of trust 
reform as being a Trojan horse, similar to the Treaty of 1889. 
That was supposed to be good for us, because that was supposed 
to be good for all the tribal membership, and was in theory 
going to make us self-sufficient farmers. Indian tribes 
collectively lost 100 million acres of tribal land with the 
sweep of a pen. We never did become self-sufficient farmers. We 
just lost our land.
    When the Federal Government has a plan for our own good, we 
want input and consultation before any such plans are 
implemented. This is consistent with our government-to-
government relationship. No reorganization shall be interpreted 
or construed to diminish the Special Trust status that Indian 
Tribes have with the treaty obligations of the Federal 
Government.
    Since the Allotment Act, the Federal Government has passed 
numerous legislation that was to assist tribes in purchasing 
land and placing it back into trust. Recently, the Attorney 
General of the State of South Dakota and his endless arguments 
opposing the tribes' efforts to put land into trust, stated 
that the Sisseton-Wahpeton Tribe was in North Carolina 300 
years ago, and somehow this added to his argument of opposing 
our effort to put land into trust. If the legislation is truly 
to assist tribes in placing land into trust, it must be clear 
and concise.
    Legislation that was not intended to assist us, or 
legislation that was intended to assist us, has impeded us. 
Trust transactions are not limited to gaming activities. There 
are tribal members who want to purchase homes and put land into 
trust because they want to be subjected to tribal jurisdiction, 
not State jurisdiction.
    It should come as no surprise when you compare the 
statistics in the State's population and the prison population. 
As indigenous people to this country, we should have an 
unfettered right to choose a jurisdiction over us, based on 
trust land. As a treaty tribe, we feel that we should be 
prioritized on a higher level than an executive order tribe 
established by the Secretary of the Interior, because our 
treaty was ratified by the Congress and signed into law by the 
President. We have a greater degree of sovereignty than any 
executive order tribe.
    I want to talk about health care. Health care is a primary 
concern for our tribe. In the Aberdeen area, we have the 
highest infant mortality rates of the 12 regions, at twice the 
national average. The national average is nine infants in 1,000 
die of sudden infant death syndrome in the Aberdeen area. We 
have 19 in 1,000 infants die of SIDS.
    We also have the shortest life expectancy. The quality of 
life can be measured in these two statistics. The diabetes rate 
in the Aberdeen area is five times that of the national 
average. Diabetes leads to kidney failure and amputation, and 
subsequently early death--all contributing factors to our short 
life expectancy. The Aberdeen area is in need of a additional 
health care dollars. Instead of receiving the estimated $6.3 
billion for health care needs, which included construction 
costs of a facilities of the Indian Health Service, $1.8 
billion was appropriated nationwide, approximately one-third of 
the amount needed. As the first Americans, we are the first to 
have our children die, and the first to have our elders die.
    I want to talk a little bit about sacred sites. The tribe 
is looking to Congress to help us address an age-old problem--
protecting the sacred and holy places that are important to 
tribes across the country. We have had presidential executive 
orders and proclamations, but none of these measures carry the 
effect into law. In order for these traditional and ceremonial 
places to be protected once and for all, congressional 
legislation will be required. Each time the court system rules 
against Native Americans, we must turn to Congress for a 
remedy.
    We are losing precious spiritual resources to poor land 
management by Federal agencies, and because of unscrupulous 
developers and contractors. In South Dakota, we have had a 
plague of problems with the U.S. Army Corps of Engineers on the 
Missouri River. Many historically important ceremonial places, 
including burials, have eroded and fallen into the river. In 
other cases, the Corps' decisions to allow the river to fall 
has resulted in hundreds of human remains washing up on 
shorelines. NCIA has called for a national coalition to address 
the protection of sacred lands and the Sisseton-Wahpeton Sioux 
Tribe supports this effort, and we will assist in the 
development of legislation to protect our sacred places.
    As we have heard of Senator Inouye's military action, we, 
too, have a gentlemen as Sisseton-Wahpeton that we are looking 
to try to get the Congressional Medal of Honor for. That 
gentleman's name is Master Sergeant Woodrow Keeble. Woodrow 
Keeble was a member of the Sisseton-Wahpeton Sioux Tribe. He 
fought in World War II and Korea. Master Sergeant Keeble was a 
highly decorated veteran. He was recommended for the 
Congressional Medal of Honor for single-handedly eliminating 
three four-man pillboxes in Korea in 1951. His recommendation 
was lost, but resubmitted. It was also lost the second time. 
The Sisseton-Wahpeton Sioux Tribe would like the Senate 
Committee on Indian Affairs to support the efforts of awarding 
the Congressional Medal of Honor to Master Sergeant Keeble 
posthumously. Supporting documentation will be submitted. With 
that, I want to thank you, Senator Inouye, for giving me this 
opportunity to address you.
    The Chairman. I thank you very much, Mr. Chairman.
    I will now call upon President Ranfranz.

STATEMENT OF THOMAS RANFRANZ, PRESIDENT, FLANDREAU SANTEE TRIBE

    Mr. Ranfranz. Thank you, Mr. Chairman.
    My name is Thomas Ranfranz. I am the president of the 
Flandreau Santee Sioux Tribe in Flandreau, SD. I am also the 
chairman of the Great Plains Region here, and the Great Plains 
Chairmen's Association. On behalf of the 16 tribes in our 
region and the 9 tribes in South Dakota, we appreciate these 
field hearing here on our Native land. We want to thank the 
Chairman and Senator Johnson for taking their time off in 
scheduling this, so we can have a good voice here for Indian 
country and our concerns here in our homeland.
    I just recently spent three days in Sioux Falls, South 
Dakota. We are meeting with our Aberdeen health groups. It was 
a very--I have also turned in some written testimony, and it is 
quite lengthy, but I would like to vary from that a little bit 
in regards to it, because the meeting in Sioux Falls was so 
interesting and so enlightening with our concerns in health 
care.
    There are a lot of positives. We always talk about our 
concerns and our numbers and our staffs here in the Great 
Plains region here in South Dakota. Funding for health care 
must be increased if we are to improve the health care status 
of Native people in this country. Currently, Indian health care 
is funded at approximately $3 billion, when the actual need is 
five times that across the country. Currently, millions of 
dollars are sent off-reservation because the services cannot be 
provided here. Historic underfunding for staff and new 
equipment has caused a direct transfer of dollars from on-
reservation to off our reservations.
    Without adequate increases in funding, our staffs, which 
only get worse--Congress must uphold its responsibility and 
guarantee our most basic treaty rights and provide adequate 
funding for health care in the Great Plains Region and the 
State of South Dakota.
    Two weeks ago, we spent two hours with the White House 
staff that had visited us here in South Dakota. For the 2\1/2\ 
hours that we spent with them, we talked about health care 
issues. We never even got off that issue, and we have many 
issues on the table. One of the concerns that we have, as we 
brought up in the Sioux Falls meeting with our area directors 
on health care, was tribal alcoholism on our reservations. We 
need programs for our young and our needy and our starting 
families. Our health directors had a great concern on how to 
prioritize injuries and illnesses in Indian country, which the 
Government is having us do. How do you prioritize which is the 
worst one?
    Inpatient treatments for youth centers are very 
underfunded. I met a young doctor there, Doctor Duchenow, who 
just finished his schooling, and I had an interesting 
conversation with him. Our costs for staffing, our costs for 
rooms, our cost for clinical counselors--way underfunded. And 
it was amazing. In talking with the doctor, he had mentioned to 
me that he had been on the job for, in my notes here, for 5 
weeks. And in that five weeks, I just want to talk a little bit 
on the human side of things, that he has had 12 suicide 
attempts, and for the year they have had 12 completed suicides. 
So his work is cut out for him, and he is willing to roll up 
his sleeves and do whatever he can for the funding for these 
young people. They are getting younger and younger. It is my 
understanding that the in-patient treatment youth centers, they 
only have about 35 percent of the moneys that they really need 
in order to do the job.
    Today, along with health care, diabetes among Native 
Americans has reached epidemic proportions, with our Native 
youth becoming affected with the disease at a much younger age 
than ever before. They are at a greater risk than ever before. 
Many tribal councils have declared war on diabetes without 
ammunition to fight the war, and no real plans with which to 
fight it. Additional funding in education and nutrition is the 
key to prevention of diabetes and other chronic illnesses that 
plague our people, including our youth, on our reservations.
    We are the only group of people who must prioritize our 
health care by making life and death decisions based on the 
availability of funding on our reservations. Young Dr. 
Duchenow--I was taking some notes--and I said well, why? Why do 
we have these problems in mental health programs? He says, 
because our area has the lowest budget, the least amount of 
staffing. We have no dollars for experts. We have no dollars 
for additional facilities or add-ons. We have no dollars for 
early crisis intervention and prevention. There are not enough 
dollars. He says the kids feel isolated on the reservations. 
There is nothing for them to do. They feel hopelessness. There 
is no family support. They are depressed, and they lack the 
mentors that can get them to the next stage of their life. A 
lot of these suicides recently have been copy-cat suicides, 
because they gain the needed power, or they get the attention 
from these copy-cats. They make them feel good.
    Lack of programs for youth--a lot of our reservations do 
not even have movie theaters. A lot of them do not have bowling 
alleys, recreation. They don't even have a McDonald's fast-food 
chains. And now there are games--games are prominent. They make 
them feel part of something so they are joining the games.
    These are some of the things that the young doctor shared 
with me. With children of all ages, both male and female, they 
have an innate need for contact with their fathers. A lot of 
the fathers, with the economic conditions today, are not there 
for them because they do not have jobs. According to the 
National Center of Children without fathers are twice as likely 
to drop out of school, twice as likely to go to jail, and 
nearly four times as likely to need treatment for emotional and 
behavioral problems as boys with fathers.
    We talked a little bit about the 13- and 14-year-old boys 
because I really got onto this because he was so enthused--he 
was just starting out; 13- and 14-year-olds are commonly the 
most difficult 24 months in life for the youth. It is in this 
adolescent period that self-doubts and feelings of inferiority 
reach all-time high, with peer-group acceptance being the major 
social pressure--rejection, ridicule, failure and being alone. 
These years are the most critical to the development of our 
children on our reservations in the mental health area. Funding 
is needed.
    He asked me to go through some of the newspapers, the 
Lakota Times, he said, because they always put in there pre-
teen talks. He says you can get an idea of our teenagers. Well, 
I did that. I went down in the Sioux Falls library during lunch 
hour and they have these pre-teen talks, and it is our youth on 
the reservations. They ask them from ages 11 to age 10, age 12. 
The question is, problems and changes that pre-teens face--what 
are the problems you face? And the answer is drugs, dropping 
out of school, drinking. Another one here is, somewhere to go 
for help--who do we go for help? They have nobody to go to for 
help. And here is another one saying, fighting the drugs 
problems, the alcohol problems, the peer pressure. Here is 
another one--drugs, alcohol. It is a constant same thing, right 
there.
    What do pre-teens need most? Loving parents--this is the 
children speaking. We need loving parents. Here is another one 
that says, someone to go home to. Here is another one that 
says, we need respect. Another one says, we need parents to 
love us and role models. So I think the challenge there is just 
enormous, and I know it is throughout Indian country.
    Real quickly--another priority in our area is bringing 
businesses to our reservation and jobs. And I know that Tim, 
Senator Johnson, has been very strong in helping us in that 
area, creating jobs on Indian reservations. We do have gaming, 
and we are thankful for that gaming. It provides jobs, but 
unfortunately they are providing the jobs on most of the 
reservations, and not economic development. The reasons being 
because the casinos here in South Dakota are located in rural 
areas. They are located in less-populated areas. South Dakota 
is a sparsely populated State. We have our harsh winters where 
people cannot travel on our roads for six months out of the 
year. The need for capital, for Indian country to start in 
gaming is enormous, and the capital pay-back is 10 to 15 years. 
So we have not seen that yet. But there is an awful lot of 
positives out there.
    Our goals would be to have more funding for continued 
school construction. Education is critical for successful 
economic development on our reservations. Job training--more 
dollars for job training; for experts in career development. It 
is vital in communities for financial success. I would like to 
thank Neal McCaleb, actually, because in the economic 
development area he has been very helpful to South Dakota and 
the Great Plains area, working with the tribal leaders.
    Additional funding for programs like the EDGE, which helps 
tribes partner with financial and business experts. Also 
additional funding for community development financial 
institutions, which helps community members to develop private 
business, products and services, and provide jobs to keep 
dollars at home and not leave the reservation.
    We have got a lot of success stories, and I know a lot of 
the other chairmen want to visit also, but on Pine Ridge, there 
on ongoing successes. In Pine Ridge they have a Chamber of 
Commerce now that is helping people start businesses, train 
those people, and they are very successful. I can appreciate 
that very much. We have got young people coming back to the 
reservation. Here is another article--business becomes more 
profitable. Here is a young fellow that is starting a 
construction business. He is doing so well he is going to open 
a lumber company on the Pine Ridge Indian Reservation.
    So those are some positive things that I think we have to 
share. I appreciate Senator Johnson's wife coming to South 
Dakota. She heard among other suggestions with businesswomen 
and the leaders, the needs for businesswomen starting business 
here in South Dakota, and she listened very well, and we 
appreciate that. Because they are creating ideals, to come up 
with their own solutions. That is what is needed to make the 
community come alive--they quoted Tim Johnson's wife--Mara, I 
think it is. Isn't it, Senator?
    And one other real thing here is long-term care. I looked 
in the paper this morning. I woke up and here in the Argus 
Leader, our local paper, it says:

    Bill Targets Lack of Tribal Nursing Homes--A bill to force 
the Federal Medicaid program to pay nursing home costs on 
Indian Reservations could be the answer to long-term care for 
Native Americans, members of the State and Tribal Relations 
Committee.

    I want to thank Senator Johnson and Senator Daschle for 
this, because our elders, it's tough to send them off-
reservation because we look up to them so much for their 
leadership, their knowledge, their wisdom--to send them away is 
devastating--off the reservation and away from their families 
and away from the people that really respect them.
    So I wanted to bring up those issues because we do have a 
lot of positives. As leaders, we realize the financial issues 
that face the Administration and this country because of the 
war on terrorism. We also deal daily with the need to make 
budget cuts in certain areas to meet the top priority needs of 
Government. The Administration cannot, however, use the war on 
terrorism as a reason to cut the budget of the neediest people 
in this Nation. This is the time for the Administration to make 
its own citizens a priority. The Federal Government cannot 
continue to turn its back on social issues that face native 
people in Indian country. The United States and the 
Administration must live up to its treaty obligations and begin 
to fund tribal programs at the level that will allow our 
leaders to meet the minimum basic needs of our people.
    Finally, I would stress that we are not native people 
asking for a handout. We are asking the Administration to live 
up to treaty obligations of the United States and to ensure 
adequate levels of funding so that our people may begin to live 
at a level that is comparable with the rest of the country.
    I thank you very much for your time and your consideration, 
Mr. Chairman.
    [Prepared statement of Mr. Ranfranz appears in appendix.]
    The Chairman. I thank you very much, Mr. President.
    And now may I recognize Mr. Chytka.

  STATEMENT OF ELLSWORTH CHYTKA, SPOKESPERSON, YANKTON SIOUX 
                             TRIBE

    Mr. Chytka. First, I would like to ask my elders to excuse 
me for speaking in front of them, and I pray to the day when 
they will all get the opportunity to address these Government 
people. Thank you, Senator Inouye, for coming to the lands of 
the great Sioux Nation. Senator Tim Johnson, thank you for your 
support on the Yankton Sioux Reservation.
    Good afternoon, gentlemen. Thank you, Mr. Chairman and 
members of the U.S. Senate Committee on Indian Affairs for 
coming to our country today and for giving us the opportunity 
to voice the goals, concerns and priorities of our peoples and 
our land with you. When people can truly speak openly of their 
concerns and issues, be heard, and trust that their message 
will be communicated and others, and acted upon on their belief 
by those in positions of power and authority, then we have true 
representation, a democracy. Again, thank you for being here 
and listening.
    My name is Ellsworth Chytka. I am an enrolled member of the 
Yankton Sioux Tribe and I am here representing Chairwoman 
Madonna Archambeau as spokesperson for the Ihanktonwan Sioux 
Nation. I am here today to discuss the concerns of my people. I 
would first like to let you know that this is very hard for me 
to put down--oral history and written testimony. Our way, as 
you know, since the beginning of time has always been oral--
oral history, culture and tradition. But it is important that I 
do so now so that the voices of my people and our ancestors 
past, and all those who care about that have no voice to be 
heard. I come here today to voice our concerns, of which there 
are many. I will not have time to discuss all of them. 
Therefore, I will concentrate on our most pressing issues.
    Our main concern and priority is the loss of our history, 
culture and our spiritual ways as guaranteed us by the 
Government in the treaties, signed bills, and acts passed, et 
cetera. Gentlemen, our spiritual way is no different from yours 
and nothing to be feared. when we pray, we pray to Tunkashila, 
God, by way of the Sacred Hoop--the Hoop that represents all 
races. For me, to the east, it represents the yellow race; to 
the west, it represents the red race; the south represents the 
black race; and the north the white race. At the center is a 
little green circle representing Mother Earth. In the center 
going out in four directions are four equal spokes that show 
that we are no different than the trees, the grass, whatever; 
that our bodies come from Mother Earth, and then as we sprout 
from there and grow, we are now allowed to reach the heavens, 
and that circle is blue.
    So it is saying that we have one God for all divine beings, 
and shows the connectedness of all of us to everything. We 
believe through our tradition and history and our culture that 
it is our duty as human beings to represent all things--the 
trees, the grass, the deer, the eagle, the hawk. These species 
are important, for they, too, are created by the hands of God. 
In order to do this, we must retain our history, our culture 
and our sacred sites--our burial sites. There have been many 
laws created to protect these sacred sites. The protection is 
no good. The laws are no good unless people enforce them. In my 
country, on the Yankton Sioux Reservation, there is no 
enforcement. The laws are not enforced. Oral history has been 
repeatedly given to State and Federal Government officials to 
let them know where there are burial grounds and sacred sites 
in our history and culture. But no one heeds these warnings, 
and they continue to dig into our history and ancient burial 
sites.
    For us and our history and culture and spiritual ways, 
these are not just bones, but the remains of our ancestors' 
past. My grandmother told me that many of these ancestors froze 
to death, starved to death, and fought to preserve this way so 
that there would be a Native American people.
    I come to you asking for your help in protecting these 
areas--these sacred cultural and burial sites are passed down 
by our ancestors. These are the ones who are buried there, 
lived there, did ceremony there. I am here to speak for those--
those that have no voice. When I was but a young boy, my 
grandma told me, grandson, in your lifetime, they are going to 
tell you one person cannot make the difference, but remember 
this--all it takes to start a fire is a little bitty spark, and 
you will be one of those sparks, and in being so, you will be a 
voice for those who have no voice, for they are humble, they 
are [native word], they are the four-leg and the two-legged 
[native word]; those that swim in water, those that crawl upon 
the earth, and those that stood upon the earth; those that live 
in the womb of Mother Earth--for these are all sacred, for they 
too were created by the hands of God. Preserve these for your 
great-grandchildren and their children, for they, too, have a 
right to see Mother Earth in its natural beauty.
    So as I speak here today, I speak only for my people, but I 
speak for all races of children that will be coming up. They 
deserve to have clean water and air. They, too, deserve to live 
in a world of peace, a world with democracy, and a world of 
justice. I ask you, where has democracy and justice been for us 
native people? It is not about money. It is not about programs. 
It is about dignity. For on my reservations, the elders can no 
longer take their grandchildren to the riverfront to talk of 
these ways and the sacredness of the water, the blood of Mother 
Earth, and to share the stories of a proud and noble people 
that have lived here for thousands and thousands of years, 
since time immortal.
    I ask you to please help us. Why is it that we, the Indian 
people, who have given this country such riches in the land, 
the minerals, the oil, and all that we have given, why are we 
the poorest people in this Nation? Why is it that when the land 
was turned over to the State of South Dakota, it was never 
thought of to return this land to the native people? With their 
wisdom and guidance, in conjunction with your expertise in this 
field, we could cooperatively work together, leaving the sacred 
sites alone and develop those lands that are not that way, so 
that we may have rangers, rangerettes, biologists, et cetera, 
introducing the people of the world to the true history of the 
Native Americans. Let us be the guides and interpreters of our 
history, the conservationists, environmentalists, biologists of 
our land, and not the people who don't live there.
    I am not a greedy man and I am not a selfish man. I was 
taught this by my grandma, who told me that in order to have 
your prayers answered, [native word], be humble, be free of 
prejudice and anger. I have no anger for what has happened. I 
have hurt. For in my hurt, I see the pains of the children who 
are now on drugs and alcohol. It is despair. It is because they 
have no history, therefore, they have no pride. It is because 
they have no history, because even in the school system where 
70-some percent of the children are Native American, there is 
no Native American language taught, no native history or native 
culture.
    Yes; we can teach a lot of it at home, but it is not only 
our youth that have lost their history and pride and culture. 
It is the loss and despair that spans through generations of my 
people. If this is truly a democracy, why is it that other 
children who have come from other countries are taught their 
language in their schools, but the native peoples who have 
always been here do not have this opportunity. This concern 
weighs heavy on me.
    Why is it that we do not have representation? We are 
supposed to deal directly with Congress. Why are we not allowed 
to do so? We were to be a nation within a nation, as set forth 
in our treaties with you. Why are we not treated as such? Why 
is it that again we meet on these terms, voicing our concerns? 
We have been telling the government of this great country our 
concerns for many years, but no one hears us. It is like the 
voice lost in the wind. I have been taught, and I have always 
said, a country is only as great as its history. Then let us 
share our history with the world, the true history and the true 
culture.
    We believe very strongly in God. We believe that God 
created all things, that God is love and compassion. But where 
is there compassion for my people from the government of this 
country? Why is it again that the government of this country 
tries to ensure that the treaties are enforced with other 
countries, and they honor the treaties they make with other 
countries, and they want other countries. When they make a 
treaty with another country to honor these treaties, and they 
help restore lands back to peoples who have lost them for 
thousands of years--example, Palestine; trying to get the 
homeland back for Palestine and the homeland back for Israel, 
when in this great country of ours, they take our lands away.
    There is something wrong with this. We have done everything 
asked of us. By population, we have sent more of our young men 
and women into battle to protect this great country. We stop at 
the signs. We get driver's licenses. We have travel 
identification cards and we vote. We do everything that has 
been asked of us. Why is nothing being done for us? You can 
give people money, but if they have no home, they have nothing. 
That land in that reservation is our home. It was promised us 
by the government that this would be our home for time 
immemorial; that our children and grandchildren would be able 
to grow up there. They would be able to live happily and carry 
on their culture, their traditions and their spiritual ways. 
Gentlemen, that is not happening. My people are losing their 
history, their culture, their way because there is no democracy 
for us.
    Where is the Bureau of Indian Affairs trust responsibility 
to us? Who defends us? Only when we get enough money for an 
attorney are we defended, and then we run out of money because 
the average income in Indian country is between $5,000 and 
$7,000 a year. Gentlemen, that is poverty. That is compared to 
a third-world country. This is going on in your great land. It 
is going on in the belly of America, and it is the belly of 
America that feeds this country and the world. And yet my 
people, many of them, are hungry; many of them are homeless.
    Help restore the dignity of a great Nation of people. You 
can do this by giving the law that it created to help restore 
and protect and provide for us the legal teeth necessary for 
enforcement. Stand up for the laws that were created and have 
been created. Stand up with us and stand up for us. Let our 
voices be heard.
    I in my life have always made my own way. My family and I 
could grow our own garden and have been taught to be sovereign, 
to be self-sustaining. I do this and practice this, and teach 
my children this. But many of my people do not know this way 
anymore because you, the Government, give them promises. They 
have gotten used to depending on promises. It is time the 
native people receive more than promises. We want the loaf of 
bread. Help us restore our land base. Help us to create 
opportunity for ourselves, to no longer be dependent on the 
Government; to help my people stand up once again.
    Our land once extended from Minneapolis, Minnesota down 
into Nebraska, Kansas, along the eastern shore of the Missouri, 
up to Pierre, SD and into North Dakota--and then, gentlemen, by 
treaty which my people did not even understand, it was taken 
away and reduced to some 400,000 acres. That was supposed to be 
our permanent home, never to be taken from us, to be put aside 
so that our children and children's children, as our population 
grew, would be able to give upon these lands and live, so that 
we would always have a home for all that we have given away.
    Well, sirs, this land has been reduced from 400,000 acres 
to 200,000 acres, and now the courts are trying to say we only 
have jurisdiction over one square mile. How can this be a 
democracy? Where is there justice for us? We do not have the 
money to defend ourselves in court. When I talk to the elders, 
they feel it was the government who was supposed to protect us, 
not to be the ones to be protected from. When I grew up as a 
little boy, my grandma made me a promise. She told me, [native 
word] grandson, they took so much away from us, but we reserve 
this water and the land. This is your home.
    Gentlemen, you have made a liar out of my grandma, for you 
have taken this away.
    I come here today humble, because I speak for so many. I 
wish they could be here speaking for themselves, but they feel 
they no longer have a voice because that voice has been 
stripped from them by powers much greater than they--the 
Government. They are beaten down, for so many no longer know 
their history and culture. Many of the young ones look upon 
themselves being Indian is bad, because that is what has been 
taught them. Remember who kept the Pilgrims alive when they 
landed here, gentlemen. We provided them with food. They came 
here because of freedom of religion and freedom of speech. They 
took our freedom of religion away, and just restored it not 
that many years ago.
    When someone speaks out now about some of these wrongdoings 
in my homeland, they are labeled, as I have been, radical, 
anti-government, unpatriotic. Why is it at a house where not 
[native word] to kill many citizens is preserved as a 
historical house and site; or preserved in Sioux Falls, SD a 
cemetery which was prime real estate in the middle of Sioux 
Falls because it was non-Indian cemetery, a European cemetery--
so that land, that cemetery was preserved. Meanwhile, in 
Mitchell, South Dakota, where there are known native burial 
mounds, development went ahead, pushing the mounds to the side, 
scattering the bones as they went. What is wrong with this 
picture? Where is human dignity? Where is there balance and 
equality in how we treat our peoples?
    I have never in my life asked for anything from the 
Government or from others. I have always made my own way. But I 
come to you today, gentlemen, I beg of you, not for myself, but 
for my children and grandchildren, and all the children in the 
future, whether it be the two-legged, the four-legged, the 
wing, those that swim in water, those that crawl upon the 
earth, those that sit upon the earth, those that live in the 
womb of Mother Earth--the great creation of God. I beg you to 
help us retain our culture, our history, our spiritual ways, so 
that we can continue to stand up for those who have no voice, 
to preserve for you, your grandchildren, and mine a bright 
future--a future that no longer is plagued by war and violence, 
but a future of dialog and democracy, a future of togetherness.
    I believe that this country can do that. I know it can, but 
before our country can go ahead and heal the wounds of the 
world, it must heal the wounds within its own country. These 
wounds, gentlemen, have to do with the treatment of my Native 
American people.
    [Applause.]
    [Prepared statement of Mr. Chytka appears in appendix.]
    The Chairman. I thank you very much. I believe Senator 
Johnson would like to ask a few questions, if you would.
    Senator Johnson. Mr. Chairman, I wonder if in order to 
expedite hearing all nine of the South Dakota Tribes, it might 
be best just to proceed with the next two panels, and then 
reserve questions at the end so that we do not deprive the 
other tribes of a full opportunity to make their statements 
here today. That would be my suggestion, Mr. Chairman.
    The Chairman. Your suggestion will be the rule.
    We will now resume our hearings.
    May I now recognize the chairman of the Cheyenne River 
Sioux Tribe of Eagle Butte, SD, Gregg Bourland.
    Mr. Bourland. They make that mistake all the time. 
[Laughter.]
    The Chairman. It sounds pretty good that way. [Laughter.]

STATEMENT OF GREGG J. BOURLAND, CHAIRMAN, CHEYENNE RIVER SIOUX 
                             TRIBE

    Mr. Bourland. Mr. Chairman, [native word]. I greet each and 
every one of you with an open heart and a handshake. My Lakota 
name is [native word], which means Eagle Flies Over Him. I have 
testified before your committee many, many times, and indeed it 
is again an honor.
    You know, this last new year's, we had a real tragic event 
happen. You may have heard about it--in which one of our tribal 
elders suffered a heart attack and was supposed to be 
transported to the hospital by the Indian Health Service 
ambulance. Instead, the doctor at the Indian Health Service in 
Eagle Butte directed the ambulance driver and the paramedic to 
either turn around and take the body back, thinking that this 
tribal elder was dead, not knowing that the elder was dead, but 
thinking the elder was dead--ordered to take the body and throw 
it in the ditch. Those were the exact words that an IHS doctor 
said about my people, about my elder.
    We met only a couple of weeks later with Senator Johnson, 
and we asked for a hearing in Washington, DC. Later, we asked 
for a hearing out here in the Dakotas, preferably Rapid City. 
We asked for a hearing on health care, on the disparities of 
health care for our people; on how our people are treated by 
IHS. When I heard they were going to have a field hearing in 
Rapid City, I got really excited because I thought that this 
hearing was going to be that hearing that we had requested so 
many, many months ago. As a matter of fact, I will submit 
written testimony, rather extensive written testimony which is 
predominantly health-related.
    Later, we found out that this hearing was on priorities and 
goals. While I was somewhat disappointed that it was not on 
health care, the hearing that we had requested, I decided to 
change my testimony here today somewhat. This morning, I got my 
son's dictionary--I stayed at his house last night--and I got 
the Webster dictionary out. I looked up the meaning of the word 
``goal.'' It was the same meaning that it was before, which is 
something that we seek; something that we wish to achieve. And 
then I looked up the word ``priority.'' It said, to give 
something preference; to make something first. Priorities have 
always been a problem with me because it is very difficult to 
take all of our issues in Indian country and make one of them 
more important than another one.
    So I thought about that this morning. I thought, okay, what 
is the most important thing if I have to prioritize, and I 
picked the number four, which is a sacred number to us Lakota, 
what would they be? It was really easy. So my first priority is 
to request you to go to the United States Congress and request 
the United States to give us back our Black Hills.
    [Applause.]
    Mr. Bourland. There are millions of acres of land in these 
beautiful Black Hills, and many of them are Federal. The U.S. 
Congress can give those back to us. They rightfully belong to 
us. You know the story. I need not tell you. You know the story 
better than anyone else. These hills have never been bought and 
paid for, and our people will never accept money for them, no 
matter how large that trust fund becomes. We will not accept 
money for them. I guarantee you, we will be the best stewards 
this land has ever seen.
    Priority number two--millions and millions of acres of 
these treaty lands were also given to us. In 1851, our 
territory extended from the east bank of the Missouri River all 
the way over into Wyoming, all the way north into North Dakota, 
south down into Nebraska--all of Western South Dakota. We want 
our treaty lands back as well--not just the Black Hills. We 
want it all back.
    Priority number three goes with the land. For years and 
years and years, in places like Wyoming, they have mined coal. 
They have taken billions of dollars worth of oil and gas and 
minerals and resources illegally from our land. We want that 
back. It is owed to us. It was stolen from us. They have 
squatted on our land and we want it back.
    And then is issue number four, priority number four--and 
that is money owed for all that is owed to us. The U.S. 
Government has had a history of depriving people during wartime 
of their entitlements. My people could not be defeated by the 
U.S. Government. My people would not surrender. My people were 
victors upon this land. Knowing that, the United States 
purposely came out and killed our buffalo. They destroyed our 
economy. They subjugated us and forced us on to the 
reservations as a result of the purposeful destruction of our 
buffalo herds, of our economy.
    In addition to that, what lands we were left with, the U.S. 
Government, as you well know, mismanaged our trust resources--
our moneys, our lands with little oil and gas or what little 
timber we have have been mismanaged. We want a full accounting, 
Senators, of all that is owed to us of the great Sioux Nation, 
and we want it with interest, so that our people can live; so 
that we can have an economy, a restored economy, so that we may 
enjoy a Marshall Plan for our people.
    Inside this written testimony is a number of other 
priorities, very important things. I don't want to list them. I 
don't want you to think that I am listing them, because to do 
so would be wrong. It would be like having 10 children and only 
having enough food for three. Which children should I choose of 
the 10? Which ones do I love the most? Which ones will I feed 
today? I know that the Federal Government has given very 
limited resources to the Bureau of Indian Affairs. They have 
given very limited resources to the Indian Health Service and 
other branches of government that serve Indian country.
    So we Native American leaders are asked to prioritize. Our 
fear in the Great Plains Region is that if we list one, two, 
three, four, five, six, seven, eight on down, that those at the 
bottom of the list may not be funded or pushed aside. So every 
year when the government asks us to prioritize, we do so under 
protest, or we do it our way.
    So I just want to throw a few simple things out here today 
when it comes to priorities, ideas. I want you to be aware that 
I am not prioritizing. But in terms of important issues, it was 
earlier mentioned--suicide. Many of those suicides are on my 
reservation. In just a couple of weeks, a delegation led by the 
vice chairman of the Cheyenne River Sioux Tribe, Harold 
Fraser--I want Harold to stand up because I want you to see 
this man so you know what he looks like. I want you to note him 
because Mr. Fraser will lead the delegation to Washington, DC 
and he will be asking Senator Johnson, as a member of the 
Appropriations Committee, and you Senator, as chairman of the 
Indian Affairs Committee, for help, for aid and assistance, so 
that we can fully fund the programs to keep our young people 
from following the ritual of suicide. That will be in just a 
short couple of weeks.
    Also, we have been grateful to receive some funding for 
domestic violence programs, but domestic violence continues to 
be a problem on all reservations. I have some ladies here today 
from our Domestic Violence. I would like to ask them to also 
rise--[native word] domestic violence. And be aware--be aware 
that many of these children that feel a sense of hopelessness 
do so because of domestic violence situations. They have grown 
from being little tiny babies watching their parents fight; 
watching their father come home late at night, if indeed their 
is a father, drunk, stoned, and committing violence against 
their mother. They have watched violence on TV. They watch 
violence in the movies. There is violence in the rap music they 
listen to today. They are surrounded with violence. It is not 
surprising that they turn to violence in their time of need.
    So I please beg for support for the domestic violence 
programs in South Dakota. You have been very gracious so far, 
and I know you will continue to do so. We need the [native 
word] River, and I am going to focus on [native word] River. We 
need a new high school. Our high school is full of asbestos. It 
is not like this beautiful school you see here. I was really 
admiring this school--walking down the hallway, dreaming how my 
Native American children should have a school like this. After 
all, his is our Black Hills, this is our land. And yet, my 
children do not have a school like this. With your help, we 
will get a school like this for my children--and not only my 
children, but the children of the Oglala, the [native word], 
the [native word] and all of the other Bands of the Seven 
Council Fires of the Great Lakota [native word].
    Also, we need some more money for our Native American 
veterans. It was really good to hear your story again told, 
Senator Inouye. Both my uncles, my great uncles, my 
grandmother's brothers, served in World War II. One uncle was a 
sergeant, and he stormed the beach at Omaha. Most of his 
platoon was cut down. They have a motto that you leave no man 
behind. He went back under heavy fire and he pulled the dead 
and the wounded alive back to shore, to get them to safety, 
relative safety, if you can call it that. My other uncle was 
the first Native American pilot, fighter pilot. He served in 
the Pacific Theater. Both were heavily decorated. Both were 
heavily honored amongst our people. Both gentlemen, though, 
when they returned home, could no even drink a glass of beer in 
a bar in this State. Both were not welcome in many places in 
this State. For the country that they had served, they were not 
welcome amongst the white people.
    Both received inadequate health care. Many of our World War 
II, Korean and Vietnamese veterans today still receive 
inadequate funding for Native American programs. I know, like 
your people, when you come home, you found out that many of the 
Japanese American people were interned. They were discriminated 
against. So I know that you know what I am talking about. You 
know that there is nothing worse than returning home for more, 
only to find out that you were not fully supported back home. 
That is the way many of our Native American people still feel 
today.
    Up and down these streets in Rapid City, I encourage you to 
drive around today. You will see many homeless Native American 
people here, many men. Each of them has a story. There are many 
Vietnamese veterans that are going to sleep alongside that 
creek tonight. That is a tragedy.
    Senator I am going to conclude. I started with health care. 
I am going to conclude with that. We have introduced in the 
Senate Finance Committee under the Subcommittee of Health, a 
nursing home bill that Senator Johnson has graciously 
introduced. Unfortunately, it is not moving very far. It is a 
bill to overcome another great discrimination that exists in 
this State, and that is the fact that the State legislature has 
arbitrarily imposed its will upon our people by placing a 
moratorium on nursing homes. We think that is atrocious. There 
is only one nursing home on a reservation. My good friend here, 
President Kindle, is lucky enough to have that.
    We, just like the Marines, have a motto. We don't leave 
anybody behind. In the days of old when our warriors went off 
to battle, we left nobody behind on the battlefield, dead or 
alive. And yet today, our elderly, our severely disabled, 
people that have had strokes or quadriplegic, they wind up in 
nursing homes many, many, many miles from our people. My 
grandmother died just up here on the hill, in a nursing home. I 
was chairman for 3 years. My number one priority in 1990 when I 
became chairman, 12 years ago, was to build a nursing home so I 
could bring her and many other of my grandmas and grandpas, 
close to 100 at that time, to bring them home. And I don't want 
to bring them home in a coffin, Senator. I want to bring them 
home alive, and I want them to be among their people, where 
they can live out their days in the luxury of our home health 
care facility.
    In conclusion, we were promised 5 years ago by Dr. Mike 
Trujillo that we would be built a new hospital in Eagle Butte--
5 years ago. We were very excited. As a matter of a fact, they 
gave him a nice little statue. It had the tribal flag in it and 
everything--really nice. And we have yet to see anything 
happen. We come to find later that I guess he promised quite a 
few tribes the same thing. It is unfortunate, because like so 
many other Federal officials, now we even have Native American 
officials breaking their promises to us.
    We are the only tribe in South Dakota that built their own 
hospital. We built our own hospital using trust funds, some of 
the trust funds that were not stolen from us, fortunate enough 
to have. We went out and we built our own hospital. And a 
couple of decades later, the U.S. Government came along and 
decided to put up a big dam by Pierre, SD, and guess what? Our 
hospital is now 40 feet under water. So the Corps of Engineers 
said, well, we will build you a replacement hospital. Senator 
Johnson has come up and he has seen that replacement hospital. 
And again, it is a travesty.
    So we have been promised this new hospital. We are right 
now working on trying to get the funding for it. We are not 
asking for special appropriations, even though it might require 
one, but we have identified funds. Senator Johnson will be 
working with you. There are existing funds within the system 
for Dr. Trujillo's promise to be kept. I know he is no longer 
there, but I know that every good government always keeps its 
promises.
    Senator Inouye, you have always been a man of your word. I 
appreciate working with you for the last 12 years. I will not 
be seeing much of you, as I no longer am going to be chairman 
come December, but you better believe that I am going to be 
there in spirit. If nothing else, I have got good e-mail, and I 
will be writing to you regularly.
    Thank you very much, Mr. Chairman. Thank you very much, 
Senator Johnson, for hearing my words, and again I wish to 
apologize to anybody, especially my elders, for speaking before 
they have had a chance to speak, and if my words have been 
strong and offended anybody, I do apologize.
    Thank you.
    [Applause.]
    [Prepared statement of Mr. Bourland appears in appendix.]
    The Chairman. Thank you very much, Chairman Bourland.
    Now may I call upon the president of the Rosebud Sioux 
Tribe, William Kindle. Mr. President?

  STATEMENT OF WILLIAM KINDLE, PRESIDENT, ROSEBUD SIOUX TRIBE

    Mr. Kindle. Thank you, Senator.
    Good afternoon to both of you--Mr. Inouye and Tim, it is 
good to see you again. Senator Johnson was down and visited 
with us at Rosebud Pow wow a few weeks back, and the people 
were really touched by that, and wanted me to tell you they are 
in support of you and we are glad that you came.
    I want to begin by saying, we are a federally recognized 
tribe down at Rosebud. There are some 28,000 members down 
there, and I represent those people. I am here today with the 
concerns and some hopes for those people down at Rosebud. I 
want to begin by talking a little bit about treaties and 
sovereignty. I am not going to take a lot of time today because 
I know that there are people behind me that wish to speak as 
well.
    With the dialogue that is taking place here today, the 
Rosebud Sioux Tribe is asserting its fundamental rights as a 
treaty tribe. We are here as a sovereign nation and continue to 
stand by the treaties that were signed by our forefathers and 
the Federal Government. We are in hopes that the United States 
of America will continue to stand by those treaties as well.
    It has been agreed in these signed documents that the 
Rosebud people as a sovereign nation will look to the United 
States of America to continue to fulfill its responsibilities 
in the treaties. These basic responsibilities include health 
care, education and welfare. Senator, that is what I would like 
to continue my dialog here with you today, in that order, 
beginning with health care.
    As you probably know, the Department of Health and Human 
Services is paying approximately 40 percent of the funding that 
goes into the hospital at Rosebud. Much of that funding is 
channeled through the community health program, the alcohol 
treatment program, the emergency medical ambulance service, and 
the mini-bus service. These services are dearly needed on the 
reservation, and we certainly would like to have that other 60 
percent of the funding put in place there as well. It is one of 
the main responsibilities that has to be addressed and fixed by 
the United States Government. Our ambulance service down at 
Rosebud is one of the most active in the area, but we have a 
yearly shortfall of $500,000, and we have had that shortfall 
for the last 15 years.
     When we come up against the shortfall, we begin laying off 
ambulance personnel and drivers, people that work and serve us 
there. When that happens, we end up with a lower level of care, 
and we cannot have that. That must not be. We need to make 
certain that ambulance service down at Rosebud is put into a 
line-item in the Indian Health Service budget. That must, must 
happen.
    Continuing along with my dialog here today, we need to talk 
a little bit about contract schools. Recently, the St. Francis 
Indian School was awarded several million dollars, and we want 
to ensure that that money stays intact at that total amount 
that was needed for the new school there at St. Francis. It is 
a kindergarten through 12th grade and it is a really needed, 
vital part of our educational system there at Rosebud.
    When we talk about the welfare of the Rosebud people, we 
have a Rosebud Sioux Tribe founding a services program that 
recently was turned back to the Federal Government because of 
lack of funding. The funding that was there was only 50 percent 
of what was needed. Now, we would very much like to have that 
program back under tribal control, back under contract, but 
with the amount of money that is there at this time, it is 
impossible for us to assume that contract again. So that is 
something that is on our agenda to do. We want to assume that 
contract again.
    We were fortunate a few months ago to be awarded a grant 
from the Justice Department to build a juvenile detention 
facility. We were really thankful for all the help. I am sure 
Senator Johnson helped us with that, and you as well. We got a 
$9-million grant to build that facility. Now, it is up to me as 
tribal chairman to seek the funding for the operation and 
maintenance of that facility, and that has to come through the 
Bureau of Indian Affairs. So we are asking that you help us get 
that funding into the Bureau of Indian Affairs Budget, and for 
the fiscal year 2004, it is about $3.5 million that is going to 
be needed for the operation and maintenance for that center.
    As always, we have a housing issue on Rosebud. We have a 
housing list, a waiting list of 400 to 500 people waiting 
patiently for a home. At this time, the moneys that we receive 
only allows us to construct 20 to 40 homes per year. At that 
rate, it is going to take us a long time to house our people 
down there. So we are asking that that program receive more 
moneys, more dollars so that we can get out people into some 
adequate housing. There again we believe that that is a 
fundamental treaty right as well.
    Our tribal court system--we have had that under 638 
contract for several years, and it has remained at $400,000 all 
those years. We believe that that needs to be doubled. The 
court system is in a building that was constructed back in 
1978. At that time, it was to staff 10 to 12 people. We now 
have 28 people in that facility. So we are asking that there be 
some help there with that court system.
    The road system down at Rosebud. There are 126 miles of 
highway on the Rosebud Reservation. There again, funding is 
inadequate. We have two snow removal machines to clear the snow 
from that system, those 126 miles, during the winter. It is 
old. It is obsolete. We are in dire need of equipment and 
dollars to fund that project.
    We would very much like to have a tribal building, a new 
building to house all of our programs and even house the Bureau 
of Indian Affairs people as well. That would make the distance 
that our tribal people have to travel to to do their business, 
it would cut those miles down tremendously. Now, we have 
different programs scattered throughout the reservation and 
they drive many, many miles to do their business. So we are in 
dire need of a tribal building there as well.
    We would very much like to see some economic development 
monies, perhaps a one-time thing that would allow us to begin 
to develop some reservation economy. We grow very weary of 
coming before you year after year asking for funding, and I see 
the time when the Rosebud Sioux Tribe will be able to stand on 
its own two feet and perhaps not approach you every year. 
Before that happens, we are going to have to have the economic 
development funds to do that. So we are asking that you help us 
with that.
    As I stated, I am going to keep my comments brief. I have 
some I am going to submit as written to you, but Senator, we 
want to thank you for taking the time to listen to our concerns 
from Rosebud. We know that the dollars are short and there are 
many hands reaching for those dollars in Washington, but please 
consider what we have said to you here today, and we hope that 
you will return to Washington, DC and do all that you can to 
help us with our requests, and we will be anxiously awaiting 
the response from you.
    So thank you, Senator, for accepting my testimony, and 
Senator Johnson, thank you for coming and listening. We 
appreciate it, and thank you very much.
    [Applause.]
    The Chairman. I thank you very much, President Kindle.
    We will listen to the next panel, and then may I call all 
of you back again.
    Panel number three consists of the president of the Oglala 
Sioux Tribe at Pine Ridge, John Yellow Bird Steele; the 
chairman of the Standing Rock Sioux Tribe of Fort Yates, 
Charles W. Murphy, who will be accompanied by Sharon Two Bears 
and Ron Brown Otter; and the chairman of the Lower Brule Tribe, 
Michael Jandreau.
    May I first recognize President Steele.

 STATEMENT OF JOHN YELLOW BIRD STEELE, PRESIDENT, OGLALA SIOUX 
                             TRIBE

    Mr. Steele. Thank you very much, Senator Inouye.
    I would like to thank the two Senators for bringing this 
hearing down to the people, to Indian country. I would like to 
thank you, Senator Inouye, for the new Federal high school we 
have on Pine Ridge and the new hospital.
    I would like to welcome you, Senator Inouye, to the Black 
Hills, the sacred Black Hills, the Black Hills that still 
belong to the Sioux Nation. In 1980, the U.S. Supreme Court 
said, the most ripe and rank case in the history of the United 
States is the illegal taking of the Black Hills. And Senators, 
when you deal with the BIA trust fund moneys, one thing the 
Oglalas ask you to remember is that just two award moneys that 
Congress has appropriated, that BIA has in those trust fund 
moneys, for the sacred Black Hills and for the great Sioux 
Nation--those are not the Sioux Nation's moneys. Those are 
still the Federal Government's moneys. We did not sell the 
land. The land is still ours. So I ask you to remember that 
when you deal with the trust fund moneys.
    [Applause.]
    Mr. Steele. Senators, I have given yourselves quite a 
number of written testimony in all areas. I have authorized and 
designated several entities on Pine Ridge to deliver to 
yourself written testimonies in education, in health care, and 
the drought systems for our ranchers. I do have, Senators, some 
very pressing needs I would like to address to yourselves. One 
of them is a 1976 memorandum of agreement, and I gave you a big 
packet up there a little while ago, a very volatile situation 
on Pine Ridge right now dealing with the National Park 
Service--this 1976 memorandum of agreement. They have not kept 
their promises from 1976. Just 5 minutes ago, it was reported 
to me there is a big helicopter out there in the Badlands. What 
is it doing out there? It has got cables hanging from it and it 
is taking a package out of there as big as a small car. We are 
going to have to investigate this to see what they are taking 
out of there. It belongs to the tribe. The land belongs to the 
tribe. We may need the Senators' help here in the very near 
future in dealing with the National Park Service and that 
memorandum of agreement.
    Another very volatile situation I would like to tell you 
about is the drought assistance. Somewhere, somehow, somebody 
has said that there are 13.1 inches of rain on Pine Ridge this 
year. I say that is a lie. [Laughter.]
    We need your help in that drought system budget legislation 
that was just passed, or we are going to have a lot of our own 
people, our ranchers going out of business this year if we do 
not get that drought assistance. So I ask your assistance 
there.
    One other thing is our public safety department--very 
essential law and order. We have, and I believe it is about 69 
cops hired through what they call a circle project of the 
Justice Department--the homeland security bill was vetoed; 
moneys in there were for [native word] cops. At the end of this 
month, September 30, I am going to belowing 69 officers. We are 
not going to be able to provide 24/7 coverage on Pine Ridge in 
law and order. We are working with the BIA to help alleviate 
this situation, but I am looking at in a couple of weeks here 
operating law enforcement with no officers, about 30 officers. 
So those are my priorities.
    At this time, Senators, I would remind the U.S. Senate that 
our treaties, according to the U.S. Constitution, are the 
supreme law of the land. Everything that we have said, begged 
for, pleaded for--if those promises in those treaties were kept 
up to today's levels, like the land values have gone up to 
today's levels, we would not be here asking. We need those 
treaties honored by the U.S. Government for ourselves, for our 
future.
    I would like to help the Senators--you know the 
statistics--one, two, and three and four poorest counties in 
the whole United States according to the 2000 Census are here 
in South Dakota. You know the statistics in health care; you 
know the statistics on unemployment. These are growing as we 
sit here. The 2000 Census says Pine Ridge's median age is 20.6 
years old. As we sit here, our housing need is growing more. 
Our unemployment is growing. Our health care needs are growing 
more. Our population is very, very young.
    On Pine Ridge, nothing was built with the growth in mind. 
Our infrastructure is lacking because our communities are 
growing too fast. We are having communities sprout up where 
there were no communities before. We need to catch up with the 
rest of America. As President Bush said in his speech to the UN 
on Iraq, to keep up with the times and progress. Pine Ridge is 
not keeping up. Our people are very, very impoverished--very 
hard lifestyles on a daily basis.
    At this time, I would like to invite Johnson Holy Rock, a 
respected elder and a fifth member on the Tribal Executive 
Board, to state a little on the treaties; and Ron Duke, I would 
like to have--he is chairman of the American Horse School. On 
Pine Ridge I have six tribal schools; I have four county 
schools; I have three parochial schools; and I have one 
federally run school. They have an organization called ONEC--
Oglala Nation Education Consortium. Mr. Duke is the president 
that, to speak on education.
    Mr. Holy Rock.
    The Chairman. Welcome, sir.

       STATEMENT OF JOHNSON HOLY ROCK, OGLALA SIOUX TRIBE

    Mr. Holy Rock. First of all, I would like to thank Senator 
Johnson and Senator Inouye for having this field hearing. Very 
seldom to these things happen, and I have anticipated this 
privilege, but I did submit a written testimony which each of 
you will get one. But basically what I said in my written 
testimony was that I represent the treaty interests of the 
Oglala Sioux Tribe. I have been the chairman of the Oglala 
Sioux Tribe a couple of times, and [native word]. But the goal 
that I saw at the time that this hearing was announced was that 
I wanted the United States of America to honor the goal of 
honoring our treaties, [native word] which in many issues and 
many times over the years, close to 100-150 years, that it has 
not been honored.
    So [native word] be to a request [native word] in the halls 
of Congress, that you convey this thought to your colleagues 
and the other members of Congress, having to do with treaties. 
And of course, through the treaties, the other activities that 
establish the trust relationship between the United States and 
the Great Sioux Nation of which [native word] an integral part 
of a sovereign nation, the Great Sioux Nation. And the 
priorities that I [native word] all of those activities that 
relate to that basic hub, namely the treaties, because of the 
Constitution of the United States under article VI, and yet 
over the years, it has been violated time and time again.
    But the Sioux Nation of Indians have been a very patient 
people. In fact, in times of emergency we forget our 
differences, and we respond in an emergency, in time of war and 
other activities that confront this Nation. I am not saying 
that this is a way of reminding you the responsibility and the 
honesty and the integrity of a nation to honor treaties, but 
that we have during World War II lost 3 years out of my life 
packing a rifle in defense of this Nation in my small way. 
Fortunately, I was able to survive this incident in the history 
of the United States.
    Now, Mr. Steele has stated pretty much what he had in mind 
as priorities in his capacity as chairman of the Oglala Sioux 
Tribe. I will not take any more of your time dwelling on that, 
because it is a day-to-day relationship that exists between 
Oglala Sioux Tribe and the Congress of the United States.
    So with that, you will have the opportunity to read my 
written testimony, and be apprised of where I am coming from on 
behalf of the Oglala Sioux Tribe. With that, I want to thank 
Chairman Steele for giving this surprise privilege to address 
both Senator Johnson and Senator Inouye. I thank you very much 
for this opportunity.
    The Chairman. I thank you very much, sir.
    [Applause.]
    The Chairman. For the record, will you identify yourself, 
sir?

  STATEMENT OF RON DUKE, OGLALA SIOUX TRIBE; CHAIRMAN, OGLALA 
                   NATION EDUCATION COALITION

    Mr. Duke. Yes; my name is Ron Duke. I am the chairman for 
one of the schools on the Pine Ridge Reservation. I am also the 
chairman of the ONEC organization--the organization which 
represents seven schools on the Pine Ridge Reservation.
    Mr. Chairman, honored members of the Senate Committee on 
Indian Affairs, we welcome you to our nation with a warm 
handshake and great appreciation for the work that your 
leadership within the Senate Committee on Indian Affairs has 
done on behalf of the Lakota People and other Indian nations 
across this United States.
    The Oglala Nation Education Coalition represents nine 
schools and 3,300 Lakota students. As schoolboard members, 
administrators and teachers, we are proud to say that we are 
embracing the many challenges that come before us in tribal 
education--low test scores, high drug rates, attendance and 
social problems caused by unhealthy behaviors and lifestyles 
within these families and communities. These are the issues 
that Lakota education people are addressing.
    To truly make a lasting, life-long difference in our 
children's learning, there must be larger financial investments 
to Indian education. Schools on Pine Ridge are not just for 
learning, but also for unlearning the unhealthy, negative 
influences that are experienced daily by our children in their 
old homes and communities. The Oglala Nation Education 
Coalition is requesting the Senate Committee on Indian Affairs 
to hold hearings on the state of Indian education, with expert 
witnesses to be from the tribal education leaders of 
schoolboards, administrators, teachers, students and parents 
living and working on Indian reservations. This is what we are 
hoping to get, is a Senate select committee hearing basically 
just for education.
    For too long, experts have represented us--those who are 
not residing and experiencing the day-to-day challenges we face 
on the Pine Ridge Reservation. We would like to hold special 
hearings to present issues and concerns from our expert 
witnesses from Indian country on the [native word] student 
unit. We have got isolation of schools. Seven schools on the 
Pine Ridge Reservation on located in rural areas, with student 
living many miles from the school. This drives the cost of 
transportation, along with the called for maintenance, as many 
roads to students' homes are not maintained. With the isolation 
of schools comes the challenge of recruiting and retaining 
qualified teachers. Training of tribal members and retaining 
them is a solution. We need to offer more incentives, like 
encouraging them to finish teaching programs and offering them 
wages and benefits that are competitive.
    With the old age of schools on the reservation, the cost of 
upgrading, maintenance, repair and preventive maintenance are 
becoming more costly as buildings and equipment or parts are 
becoming more obsolete. Teacher and staff housing are rapidly 
deteriorating. We have a need for more housing, as the student 
population increases, to the need for staff housing. All the 
funding is going into repairs. No funding is left for 
preventive maintenance.
    The need for special staff--increases in personnel other 
than teachers to meet the needs for students of families is 
needed--stopping truancy; family services, counseling, drop-
outs, day care, therapists, and schools all-day; and funding to 
pay and book speakers to assist in preservation in developing a 
curriculum of materials; staffing for after- school programs to 
assist students to gain grade-level status; tutoring in all 
subjects and activities for advance work; staff for home visits 
and checking on families; staff for programs to reduce risk for 
diabetes, alcohol and drug abuse; special transportation and 
other costs of isolated schools.
    Distance between schools and residents is high in rural 
areas like Pine Ridge Reservation. Many students live off main 
roads, which are usually in poor condition and difficult to 
traverse in inclement weather. The distance and the road 
conditions require maintenance costs for vehicles. Schools have 
to travel long distances to purchase supplies and must pay 
higher transportation costs, which requires expenses by a 
vendor. There has to be an increase in transportation dollars 
to be able to provide for our after-school tutoring program. 
These programs are absolutely necessary for students to catch 
up and get help, to provide follow-up visits to families, and 
transportation for personnel to work with families in their 
homes.
    Costs associated with greater length of service and 
education personnel; the increased pay-scale to retain 
employees who have maxed out the scale; a fringe benefit 
package that will appeal to teachers as part of recruiting and 
retention. We must be able to reward our own tribal members who 
have worked hard to reach this level of professionalism to stay 
in the community. Many of the schools cannot go any higher to 
reward long-term teachers.
    The costs of therapeutic programs, with the horrific rates 
of family violence and alcoholism, along with unreported child 
and sexual abuses. Many children are in need of therapy, lay 
therapy, and counseling. The Indian Health Service is not able 
to begin to meet these needs, as it is underfunded and lacks 
the personnel that specialize in working with children on 
adolescent mental health needs. The recruitment and retention 
for this type of specialty will require a large investment--an 
investment that will be seen many years later when early-
intervention children can grow up to be healthy and well-
adjusted regardless of what they experienced.
    On behalf of the Oglala Nation Education Coalition, we 
thank the Committee on Indian Affairs for coming to our 
homeland and for this opportunity to request hearings on the 
state of education, to hear from the real experts.
    I thank you.
    The Chairman. I thank you very much.
    [Applause.]
    Mr. Steele. We will finish up in a few minutes. I see that 
Vice President Tom Iron here. He is a Vietnam veteran, and 
president and he is going to be here in a second, tribal 
members, Senators. They are asking me because the time [native 
word] on the children's mental health programs that is coming 
from the Lakota perspective, when we have people with mental 
health problems, the non-Indian psychologists and 
psychiatrists, their culture, their traditions, their 
lifestyles--everything is different from us back home. And so, 
my tribal [native word] says, ask the committees, the Senate 
Appropriations Committee and the Indian Affairs Committee, to 
establish funding for culturally appropriate mental health 
systems of care. So I pass that on to you. And you, Senator 
Inouye, have told me over the many years to get involved in the 
electoral process so that we can show some strength and get 
something done. I would like to tell you Senator Inouye that in 
South Dakota here across the State, the Indian vote did get 
Senator Johnson elected 6 years ago, and in November we will do 
so again.
    Thank you very much.
    [Applause.]
    [Prepared statement of Mr. Steele appears in appendix.]
    The Chairman. Thank you very much, sir.
    And now may I recognize Vice Chairman Iron.

STATEMENT OF TOM IRON, VICE CHAIRMAN, STANDING ROCK SIOUX TRIBE

    Mr. Iron. For the record, Senator, my name is Tom Iron. I 
am vice chairman of the Standing Rock Sioux Reservation. I 
represent the Standing Rock Sioux Nation, and it is an honor to 
be here today, sir, to hear testimony. I have provided you a 
copy of the testimony for the record. I am not going to read 
page by page, but summarize this testimony to you, basically to 
share this information with you.
    My brother and I are veterans. We served in all four 
branches of the military service and we are very proud to have 
had the privilege, and we have a lot of respect for you, 
Senator Inouye, for your services to our country, just like we 
did as military men.
    One of the things I wanted to share before I forget this 
part of the important issue that I wanted to share with Senator 
Tim Johnson, I would like to ask you to research your records 
to see if there is a possibility that put in capital letters 
the name of Percy Good Eagle. Percy was a combat veteran, five 
tours of Vietnam, and many decorations. I submitted an 
application for a Medal of Honor for him, and I have not heard 
anything on that yet, but I think he deserves it and I wanted 
to mention that, and see if we can follow-up on that.
    Some of the things that I just wanted to touch on the 
testimony that was prepared earlier is basically the trust 
responsibility of the Government and some of the things that 
are of special concern to the Sioux Tribe about the IM services 
and all of the services that were established in another 
department in Albuquerque, so it was to take our IM records and 
all that from other Indian tribes, which may affect our 
processing of IM payments to our reservation--there really is 
no support to our reservation and we very much need to maintain 
a record. We are starting to lose our records from the 
Government.
    One of the things is the schools that we have on the 
reservation. I think every chairman has probably addressed 
this. We have got these dilapidated schools that are probably 
not the best things in the world, but we do not have the funds 
to do construction or to build new facilities on the 
reservation. With the funding that we had, we spent some money 
on the public schools in [native word], public schools, to 
build a new school for them. But when we see the new school, we 
think, well, I wish we could have more schools throughout the 
reservation in South Dakota, but we just don't have the funds 
to provide those types of services that we need.
    When we come to the schools, we also have to address the 
need for more tribal roads on the reservation. We look at 
probably 375 miles of tribal roads that are needing repairs, 
and you are looking at $375 million that we are going to need 
as a reservation to do some work on the roads on the Indian 
reservation, and that is very important to us because the kids 
need to be transported to the schools on the reservation, and 
utilize those services that we actually need.
    I want to touch a little bit on the important problem that 
every Council and Chairman has ever asked, and address economic 
development. We talk about economic development, but you know, 
the important thing that I always say is that in order to have 
economic development, first of all, we have to become healthy 
as an Indian nation. And I address it basically because of the 
fact that there is a higher rate of alcoholism, drug abuse, and 
suicide situations. In 1998, we probably had the highest 
numbers of suicides on the reservation. We talk about diseases 
that affect our reservation--diabetes, a very, very serious 
situation that we are dealing with. One day I have to go back 
and go to my cousin's funeral because he died from renal 
dialysis problems. Many relatives are dying from this 
situation.
    Thanks to Senator Inouye for the funding that we receive 
for renal dialysis care, but we need far more staff from the 
Government to care for people that have diabetes. Diabetes just 
goes on into heart problems, strokes and all these things that 
affect our people with these situations. I am also affected by 
diabetes, but mine is the situation from Agent Orange in 
Vietnam, and I am a disabled veteran, but other people don't 
have those benefits, but only IHS, and they don't get adequate 
services of people and personnel. Again, we look at manpower 
that is needed for care for the problems, the chronic problems 
that we have with diabetes on reservations. I have always 
expressed a serious concern because of the fact that you have 
children, young adults that are abusing drugs and whatever. We 
have the problem of diabetes which is affecting the health of 
many, many of our Native American people on the reservation.
    I talk about, I think if you look at the records, in 1990 I 
provided testimony to a Senate investigation regarding the 
problem of FES/FAE on Indian reservations. Those numbers were 
about 190 then, but that number in 12 years of outreach became 
much higher, and we think about the [native word] that are 
trying to prevent the right education to be used on 
reservations, they cannot provide [native word] due to the fact 
that there are very critical needs for therapeutic care and all 
the things that are basically needed to care for these children 
as they come in the school systems. That was the really 
important thing that I wanted to share with you.
    I had a meeting with one of my people within the system of 
tribal government and law enforcement. Law enforcement is a 
critical situation right now on our reservation because we just 
don't have the manpower and additional funding to take care of 
these problems. Right now, the crime rate has increased much 
higher than back in the 1990s, early 1990s. In the last 12 
years, our crime hate has really increased, and we just don't 
have the adequate funds to provide this needed service on 
Indian reservations so that we can prevent the situation that 
we are facing on the Indian reservations.
    These are some of the things that I have documented and 
provided some records from the schools, Standing Rock community 
schools, one of them that provided some information. I think we 
need to look at that very carefully because it is probably one 
of the largest Indian schools on our reservation which provides 
an education to our children. They have lack of funds to 
provide for better facilities for the reservation.
    I always have that fear that some day one of these 
concrete-built schools are going to collapse on our children 
because they are already deteriorating and [native word] 
schools that have been built, there may be some day, and I hope 
it does not happen, but these schools are going to collapse on 
our children some day and it is going to be really hurting us 
as an Indian nation to think of why didn't we, you know--those 
are important things that I always think of that we need to 
take care of for our people on the reservation.
    So gentlemen, without taking too much more of your time in 
order that others may speak that are here, but hopefully the 
testimony that we share will be followed through and help our 
Indian tribes get some funding for these services we need.
    Thank you.
    [Applause.]
    The Chairman. I thank you very much, Mr. Vice Chairman.
    And now may I call upon Chairman Jandreau.

STATEMENT OF HON. MICHAEL JANDREAU, CHAIRMAN, LOWER BRULE TRIBE

    Mr. Jandreau. Chairman Inouye, on behalf of the Lower Brule 
Sioux Tribe, it is a great honor to welcome you to South Dakota 
to discuss the needs of the great Sioux Nation.
    We greatly appreciate the hard work and the leadership of 
Senator Tim Johnson as a member of the committee, and as a 
member of the Committee on Appropriations.
    Mr. Chairman, you have already heard today the needs of the 
great Sioux Nation are many. Our unemployment rate is far too 
high. Our schools and infrastructure are in need of repair. Our 
life expectancy is too low. Our infant mortality rate is closer 
to that of a third world nation than that of the United States. 
It is painful to see this every day. You simply must address 
these needs, and also develop a private sector on the 
reservation to improve the quality of life for everyone.
    With your permission, however, as a member of Secretary 
Norton's task force, I would like to focus my attention on the 
current trust fund reform initiative. As you may know, the 
tribal members of the Secretary's task force at the Department 
of Interior have reached an impasse. The Department has 
suggested the establishment of an Under Secretary for Indian 
Affairs. I would personally prefer that would be of Indian 
Affairs, but the title of that person is not the central issue. 
The central issue is three-fold--the duties and 
responsibilities of that official; the standards to be applied 
by that official; and the ability of Indian people to hold that 
official of the United States of America accountable for any 
breach of their fiduciary responsibility.
    If we have responsible officials clarifying their 
responsibility and the standards to apply, to be applied, then 
they have simply moved the boxes around without enacting true 
trust reform. I do not believe that raising the issue of 
standards is having a new and different issue. Rather, the 
standards are central to trust fund reform and are indeed the 
essence of trust fund reform.
    The Lower Brule Sioux Tribe has endorsed S. 2212, 
introduced by Senators McCain, Daschle, and Johnson. I believe 
this legislation would provide an excellent framework for the 
committee consideration with some amendments, and deserves the 
support of the Indian Affairs Committee.
    Mr. Chairman, it is my belief that time is of the essence. 
The Department of the Interior is proceeding with trust reform. 
The Supreme Court is about to consider at least two very 
important Indian cases. As you know, the Supreme Court has been 
looking to Congress for various specific guidance on a variety 
of issues affecting these cases. The Court has been looking for 
express statutory authority for the actions taken by officials 
of the executive branch. It is important that Congress 
establish by statute the fiduciary standards by which to judge 
the actions of the United States of America with regard to 
Indian tribes and Indian people.
    Finally, Mr. Chairman, it is my hope and recommendation 
that Congress prohibit the Department of Interior from using 
any appropriated funds to implement trust fund reform until S. 
2212, as amended, is enacted.
    In closing, allow me to express my deep appreciation to 
both of you for bringing the committee to South Dakota. 
Chairman Inouye, you have been held in the highest possible 
regard by Indian country for a very long time. We appreciate 
everything that you and Senator Johnson have done, and are 
trying to do for Indian people. Thank you, and I will be 
pleased to answer any questions. However, there was one 
statement that the ladies from the Sacred Circle incorporated, 
asked if I could convey to you, Senator, as Chair of the Senate 
Committee on Indian Affairs and a long-time friend of Indian 
tribes. Native American women are asking you to call a Senate 
committee hearing to reveal the battery and rape and stalking 
of native women and the handling of these kinds of [native 
word] by the Federal Government, and the programs available to 
Indian tribes through the U.S. Department of Justice and the 
domestic violence against women.
    [Applause.]
    [Prepared statement of Mr. Jandreau appears in appendix.]
    The Chairman. Thank you very much, Chairman Jandreau.
    Mr. Iron. Senator Inouye, I have a veteran with me who was 
combat-wounded. He wanted to share powerful testimony. I said 
yes, I will allow you to come with me and please share with the 
Senators, and I almost forgot him. Sir, if you will please 
acknowledge Allan White Lightning. Would you please come up 
here, Allan.

  STATEMENT OF ALLAN WHITE LIGHTNING, NATIVE AMERICAN VETERAN

    Mr. White Lightning. Thank you, Mr. Chairman. I appreciate 
Mr. Irons' request of me to present some testimony.
    Mr. Chairman and Senator Johnson, Rapid City here is the 
home of many of our people, who live and come from Standing 
Rock, Cheyenne River, Quill Creek, Lower Brule, Pine Ridge, 
Rosebud, and Yankton. They have always gone home to the 
celebrations and the happenings that occur at their home. They 
did not come here living in Rapid City on their own free will. 
Most of the time, they left because of poverty and despair back 
home.
    What we are asking is that on Standing Rock, there is a 
bill called Public Law 102-575, title 35, it is called the JTAC 
bill. The JTAC bill was approved back in 1994, which basically 
created an opportunity for residents of Standing Rock 
Reservation, for economic recovery. They did not provide any 
language in the legislation for people that are living off the 
reservation. Additionally, there was an economic loss report 
that was done on that particular report, which provided $375 
million, and this was basically supported also by the General 
Accounting Office. However, only $90.6 million was received by 
Standing Rock.
    What we ask is that the difference of $245 million be 
provided to Standing Rock so that they can help their members 
who live off the reservation, specifically like in Rapid City.
    Second, Mr. Chairman, when an elder told me that a lot of 
times when you have the land, that people cross your land to 
take their cattle to the calf sale, and they in turn make money 
and they go back across the land. You know, in 1958, when there 
was a Fifth Amendment taking of the lands that were relative to 
our people that live along the Missouri River, Standing Rock 
Sioux Indian Reservation, there was 56,000 acres of homelands 
that were confiscated by the Federal Government. Many of these 
homes and homelands were owned by individual members of our 
tribes. When the legislations were given, they were provided to 
the tribe. On Standing Rock, there are four communities of 
Cannonball, Fort Yates, Kensal, and Lefor which were directly 
affected. What we have also is that there are 22,000-plus acres 
of river bottomlands currently that have not been compensated 
for. We still own that land.
    Every year, the U.S. Government collects $660 million 
annually from the creation of power and the sale of power and 
creation of hydropower here. We ask, Mr. Chairman, that 
Standing Rock Sioux Tribe, because of the violation in crossing 
our land without our permission, that we, the Standing Rock 
Sioux Tribe, be given an amount plus the interest from the time 
that the Fifth Amendment-taken was done.
    Additionally and last, I, too, support what the Vice 
Chairman Iron is saying is that Percy Good Eagle, who is a 
combat veteran many times over, from Standing Rock, be 
considered and that you, as representatives of our people also 
take that into consideration.
    Thank you very, very much, Mr. Chairman, and I would like 
to have Mr. Iron ask Jesse Taken Alive, former Chairman of the 
Tribe, he has a couple of comments he wants to add also.
    The Chairman. Thank you very much.
    [Applause.]

STATEMENT OF JESSE TAKEN ALIVE, COUNCILMAN, STANDING ROCK SIOUX 
                             TRIBE

    Mr. Taken Alive. Thank you, Mr. Chairman, Hon. Senator 
Inouye and Hon. Senator Johnson, Senator from South Dakota.
    My name is Jesse Taken Alive. I am from the Standing Rock 
Reservation. My Lakota name is (Lakota language).
    My friends, my name is Jesse Taken Alive, and interpreted, 
it means taken alive. My relatives have talked for a while 
today, and I am going to say a few short words, and I am going 
to speak as myself, from my heart as a Lakota person, as a 
common ordinary person who lives here. Again, welcome to the 
Black Hills, the home or our heart, the heart of our home. This 
is where are creation stories come from. We come from no place 
else but from here.
    Recently, a huge city in our world celebrated 1 year of 
mourning--New York City, United States of America. We have 
experienced those tragedies as indigenous people--acts such as 
Wounded Knee, episodes of colonization. You have heard the 
pleadings today for resources, and you will continue to hear 
those. But what I will share with you today is, number one, I 
would like to respectfully say that this is a nation-to-nation 
gathering, because we have treaties. Nations make treaties. 
Treaties do not make nations. We have those. And they are 
existing. There are many, many episodes of language that is 
used, and I say this most respectfully, by the United States 
that is in existing treaties, implying that treaties are no 
longer in effect. But they are, and that can be demonstrated.
    The reason I am going to talk about this briefly, and talk 
about an illegal act as it was characterized by a former Under 
Secretary Gover of the Interior Department a day after former 
President Clinton visited our Black Hills recently, and that is 
the March 2, 1889 act. The reason we need to talk about this is 
because we have States rights. States rights are gobbling up 
land. States rights are causing State officials in our great 
State of South Dakota, as it is often called, to refer to the 
Missouri River as ``our water,'' and we know that that is our 
water, as indigenous people.
    Also, legislation dealing with indigenous people of the 
United States of America often is only completed to the process 
of riders. It is always a rider that is accompanied to 
something, and in most cases, fortunately, we see the loss of 
real estate rights to water, rights to land, and the right to 
use them. This is why we need to keep continually asking this 
committee that represents the most powerful country, the United 
States of America, to look at treaties and to look at the 
illegal act of March 2, 1889.
    This is not a Republican or a Democratic issue. This is 
about a nation-to-nation relationship that must be continued 
throughout. We are talking about quality of life. You can hear 
the pleas again, and how the records are there to demonstrate 
how our quality of life has greatly been diminished because of 
the colonization, the forced colonization of the United States 
of America.
    Senator Inouye, during my tenure, and I say this gratefully 
and humbly, upon one of my visits to your office, I remember 
you telling me that the story and the plight of American 
Indians is the world's best-kept secret and it can no longer be 
the world's best-kept secret.
    [Applause.]
    Mr. Taken Alive. For example, in article 2 of one of our 
treaties, it describes the boundaries of the land, and it says 
these lands are set apart for the absolute and undisturbed use 
and occupation, and that is us, Senators. Also, in article 13, 
it talks about doctors and teachers, and it talks about 
sufficient appropriations for doctors, teachers, carpenters, 
and blacksmiths. We have always been in a discretionary budget 
of suggestions and recommendations from the President of the 
United States. I have seen that for myself when it comes to 
health care. We cannot have that anymore.
    I know you have been asked for a lot of money during your 
tenure as Senators, from various groups. Please, Senators, keep 
in mind we are not minorities. We are not special interest 
groups. We are members of indigenous nations, whose lands we 
are renting to you.
    [Applause.]
    Mr. Taken Alive. I would ask, and I beg your apology and 
your indulgence, if I could physically hand to one of your 
staff people in the presence of my relatives who are seated 
behind me, a copy of the 1889 Act--if one of your staff members 
could come and accept this.
    Honorable Senators, chapter 405 of this act of 1889 says, 
``An Act to divide a portion of the reservation of the Sioux 
Nation of Indians in Dakota into separate reservations and to 
secure the relinquishment of Indian title to the remainder, and 
for other purposes.'' This is the act, Senators, that former 
Under Secretary Gover, working for the Bureau of Indian 
Affairs, said was an illegal act. This is why he said it was an 
illegal act. He did not say that. This is why we believe, and 
we concur, that it is an illegal act. Section 28, that this act 
shall take effect only upon the acceptance thereof and consent 
thereto by the different bands of the Sioux Nation of Indians, 
in manner and form prescribed by the top article of the treaty 
between the United States and said Sioux Indians, concluded 
April 29, 1868, which said acceptance and consent shall be made 
known by proclamation by the President of the United States 
upon satisfactory proof presented to him that the same has been 
obtained in a manner and form required by said top article of 
said treaty, which proofs shall be presented to him within one 
year from the passage of this Act, and upon failure of such 
proof of proclamation, this act becomes of no effect, null and 
void. We move to the section 30 that says that all acts and 
parts of acts inconsistent with the provisions of this act are 
hereby repealed.
    Honorable Senators, we have proof that the three-fourths 
signatures were not obtained, and that is why this act is an 
illegal act. And that is why the boundaries have been illegally 
made. And that is why we must sit down as nations and talk 
about our title and deed to these lands, because indeed they 
are ours, beginning with the fact that a pact does not 
supersede a treaty.
    We must also talk about the reparations that we have been 
hearing all day today--the need for money for schools; the need 
for health; the need for roads. Senators, I would ask you, as 
members of this committee, and maybe it is going to take longer 
than our lifetime, but our children, our grandchildren need to 
sit down and right this wrong.
    Finally, a copy of the Fort Laramie treaty of 1868, as an 
example. It says, from this day forward, all war between the 
parties to this agreement shall forever cease. The Government 
of the United States desires peace and its honor is hereby 
pledged to keep it. The Indians desire peace and pledge their 
honor to maintain it. This is the spirit that I talk about. 
This is the spirit that I bring to this hearing today.
    Honorable Senators, when this act of 1889 was put forth, we 
saw tremendous, tremendous amounts of illegal taking. We saw in 
1924 our grandparents and great-grandparents forced to become 
members of this great country. And I know many of them are glad 
that they are members of this country, but just the act of not 
being asked to be members of a country could possibly be a 
human rights violation.
    On and on through history up to today, continuing taking 
and taking and taking. I am fearful for my children and 
grandchildren. The population growth, and there is land up here 
that is going to be confiscated unless we sit down and take a 
look at the March 2, 1889 map. And again for the record, if I 
could ask some of my relatives to give a copy to you of the 
1868 treaty as an example. And there are other treaties that we 
could talk about, such as the 1851 land treaty.
    Again, the spirit of our discussions today as nations must 
continue on. I respect the integrity each and every one of you 
who are members of this committee, and especially those of you 
two who sit here with us.
    Senators I would like to close, because testimony means you 
talk from your heart; testimony means you talk the truth; 
testimony means that you share this willingly and in good 
faith, trusting.
    I would like to close my testimony by singing the song that 
honors this flag, because in our culture, we believe 
respectfully that we own part of that flag as a result of the 
battle of Breezy Grass of 1876.
    [Applause.]
    Mr. Taken Alive. We also respect and admire our 
grandfathers who fought for this country in a World War I and 
all the way up to today, in memories of our people who will 
continue to defend this country. It is not being unpatriotic to 
this country. Rather, these treaties that I speak about are 
found in your Constitution. In fact, the reason treaties are 
put in a constitution is to guarantee the dealings with 
indigenous people, our ancestors, who still occupy these lands, 
so let them.
    I would like to close by singing a song to the flag that 
each and every one of us knows.
    [Song in Lakota language].
    Mr. Taken Alive. Thank you, Honorable Senators.
    [Applause.]
    The Chairman. It was an appropriate song for an appropriate 
time.
    Before I call upon and recognize your distinguished 
Senator, may I advise the group that the record of the 
committee will be kept open until September 30. So those of you 
who wish to submit statements on issues being discussed today 
may do so, and send that to the Senate Committee on Indian 
Affairs, U.S. Senate, Washington, DC. May I also assure the 
witnesses who testified today that your full statements, 
because I realize that many of you did not provide the full 
statement, will be made part of the record.
    With that, may I call upon your great Senator, Senator 
Johnson.
    Senator Johnson. Thank you again, Chairman Inouye, for 
convening this hearing here in South Dakota. Too often, we have 
opportunities on our committee to hear experts, so-called 
experts in Washington, DC, but is important I think to this 
committee to come out to the home of the--under the tribal 
homes across this Nation, to hold hearings where we can 
directly hear from the people themselves.
    I want to commend you, Chairman Inouye, as well for 
sacrificing the time that might more typically have been used 
for the committee to ask questions or to express comments of 
their own in order to maximize the amount of time available for 
the witnesses to testify themselves. I think that it is the 
greater good for the committee to spend more time listening and 
less time talking, and I think once again your wisdom was 
correct.
    I do not have questions at this point. We are going to need 
to conclude soon, but I do have some closing comments that I 
want to make relative to all of the witnesses before the 
committee today.
    Chairman Grey, I appreciate all that you have done for 
Sisseton-Wahpeton. We are working very closely with you on a 
new IHS facility. I have toured it personally. It is in 
abominable condition. Much of it is a matter of old, old 
derelict buildings, trailer houses that should have been hauled 
to the landfill long ago. We are at the very early stages of 
replacing that facility. We are also working with you to expand 
the BDM water system, to again provide opportunities for clean, 
potable drinking water for members of the tribe.
    President Ranfranz, thank you for all that you do at 
Flandreau, and for your service as leader of the Great Plains 
Tribal Chairmen Association. I think you have done great work 
in that regard, and with the particular attention that you have 
given toward economic development issues and ways that we can 
help you break down the cycle of poverty and dependence that we 
have had so much of for far too long. I have appreciated your 
leadership in that regard.
    Mr. Chytka, thanks to you and to Chairwoman Archambeau for 
all that you have done on the Yankton Reservation. I have 
shared your frustration in particular over the lack of 
responsiveness on the part of the Corps of Engineers relative 
to the burial site problems that now have become chronic. I 
thought it was bad enough when we first heard the White Swan 
experiences. I personally toured that, and participated in 
ceremonies there. But we seem not to be making the progress 
that we ought to have. It is my understanding that you and your 
tribe have just concluded a 14-hour mediation process with the 
Corps regarding burial sites. I applaud your tenacity, but this 
is a circumstance that should not require that kind of 
longstanding negotiation. It is simply a matter of the Federal 
Government doing what is right.
    For Chairman Bourland, I want to thank you for your 
leadership on so many things on the Cheyenne River. Again, I 
have toured your health care facility as well. It is in 
terrible condition, and I want to share with you my great 
frustration that even the plans for a new facility, deleting 
obstetrics care, I was shocked on my tour that you helped lead 
on Cheyenne River to find that women about to give birth are 
expected to get on icy highways and drive 100 miles to Pierre 
in order to deliver a baby--literally life and death and 
sometimes death has resulted from that. I appreciate all that 
you have done relative to nursing home legislation. This has 
been an issue that has been highlighted by a number of our 
tribal chairs, but it is in keeping with the kind of respect 
that needs to be shown to our elders. I agree with you that the 
legislation is not moving as quickly as we want it to move, but 
I remain determined that we are going to make this happen, and 
we can correct this longstanding injustice.
    For President Kindle, I again appreciate your leadership on 
a whole range of things. We are making some progress with many 
issues on your reservation, as well as Lower Brule and as well 
as Pine Ridge, but we have much more to be done. I share your 
frustration over the new juvenile detention facility, but 
without the resources as yet to staff it and to make it work in 
the way that it needs to be done; the shortages of housing; the 
needs that we have for ambulance and medical care and that 
regard; and for school facilities is simply overwhelming, and I 
appreciate your bringing those issues to the committee today.
    And for President Steele, again, you have raised and your 
tribal members have raised profound issues as well on a whole 
range of issues. I appreciate the documentation you provided me 
today on the National Park Service conflict. We are having this 
go on at the same time as we are having Corps of Engineers 
problems on the Yankton. And all of these are problems that 
could easily have been corrected with the kind of consultation 
and government-to-government respect and courtesy that ought to 
be the standard way of operating, and yet, it has not been the 
case in too many instances. And so, I appreciate your emphasis 
on that.
    I also appreciate that you are working with the other 
tribal chairs and presidents, particularly with Andy Grey, 
relative to articulating in a strong fashion the treaty 
statement that I am looking forward to reviewing it now and 
finalizing this, but I am looking forward to submitting into 
the Congressional Record for all time, to have this as 
something in the United States record, and you have played a 
key role in making that happen.
    Vice Chairman Iron, again thanks to you and your tribal 
members for your insights on JTAC, on the lost records of 
schools, roads, health care needs there. I appreciate again 
your raising the Percy Good Eagle matter. I know that there and 
on the Sisseton-Wahpeton, the interest in honoring people who 
have served with great distinction, and I will do the best we 
can to make sure that these people are in fact properly 
honored.
    Last, of course, to Chairman Jandreau--there is a great 
deal that you have done that I have had an opportunity to work 
with you on, but most of all your leadership on trust issues 
and your taking on the formal leadership role that you have had 
has been extraordinary. This is an area where, again, Chairman 
Inouye and I are going to have to work closely with you. I have 
submitted legislation with Senator Daschle and Senator McCain, 
as you know, where we are trying to incorporate the tribal 
perspectives on trust management reform, rather than having 
something imposed from the top down incorrectly; have the 
resolution of this problem come from native peoples themselves. 
We are trying to accomplish that, and the work of your 
commission and your leadership has been helpful in great regard 
there. We also have, again, the question of violence against 
women, and whether native people or non-native people, there we 
have much catching up to do and much work that needs to be 
done.
    So in conclusion, let me simply say that this, I think, has 
been a very beneficial hearing, certainly for Senator Inouye 
and myself, but everything is on the record here. This is being 
transcribed, and this is being returned to Washington, DC for 
the review of the other members of the committee, Republican 
and Democrat, and for their respective staffs. I think this 
will be very beneficial to get the insights directly from 
native leaders here in the State of South Dakota.
    Again, the only way that we will successfully address many 
problems is to start out with an understanding that this does 
indeed involve a government-to-government relationship that 
must respect the sovereignty of our tribes and must respect the 
Federal Government's responsibilities for treaty and trusts, 
and that while many years have passed, and while gaming 
revenues have been generated in some places, they do nothing to 
diminish the legal obligations and responsibilities that we 
have to conduct our affairs in a government-to-government 
basis, with a spirit of integrity and dignity and respect for 
our native peoples.
    So I want to simply conclude the hearing by saying that you 
have contributed mightily today to a better understanding on 
the part of the Federal Government of its responsibilities and 
obligations, and of its opportunities. So thank you again for 
your testimony and for all that you contributed to this 
hearing. I yield back to the Chairman.
    [Applause.]
    The Chairman. I have heard your sad voices of anger and 
frustration. I have been hearing them for the past 15 years, 
when I first became chairman of this committee, and since then 
as part of the leadership of the Indian Affairs Committee.
    I would like to respond to some of the issues that were 
brought up. The first witness spoke of not being able to place 
certain lands in trust. The reason given by the Administration 
was that these lands are not your ancestral lands. You came 
from somewhere else. Well, I am certain those of you who have 
studied the history of the United States will conclude that 
this is a great country. This is a magnificent country, but it 
is a country like all other countries that are run by men. We 
make mistakes, and sometimes we make terrible mistakes. For 
example, our founding fathers in those days of the Revolution, 
studied government of the Iroquois Confederacy to establish the 
Government of the United States. The Iroquois had a 
confederation of tribes. They selected a supreme chief, 
selected by the clan mothers--women voted in those days. They 
called it something else but they had a House and a Senate. 
They had a judiciary. If you look at the writings of Benjamin 
Franklin and Thomas Jefferson, you will see a reference to the 
role that this Iroquois Nation played in establishing the model 
for our country.
    Our founding fathers recognized your sovereignty--and that 
was put in the Constitution of the United States, if you look 
in the Constitution. It is very clear that Indian Nations are 
sovereign nations. And as a result of that recognition of your 
sovereignty, the relationship between the Government of the 
United States and the sovereign governments of Indian country 
was carried out through treaties. Eventually, the United States 
entered into 800 treaties with sovereign Indian nations, signed 
by either the President or the Secretary of State, and signed 
by the Chief or whoever was the Elder. But I am sorry to tell 
you that of the 800 treaties, 430 are still in the files of the 
U.S. Senate. They were not acted upon. They were ignored by our 
predecessors because something happened after the signing--they 
found gold; they found oil; they found precious material. So 
they ignored those treaties--370 treaties were signed and 
ratified by the U.S. Senate, and they became part of the 
supreme law of the land.
    But I am sorry to report that the U.S. Government violated 
provisions in every one of them--without exception. As a 
result, you know that many of your brothers and sisters in 
California were among those that got caught up in this mess. 
Their treaties of recognition are still in limbo. So they are 
not currently recognized.
    I bring this up because the U.S. Justice Department 
suggests the following, that to provide assistance and aid to 
non-federally recognized Indians is race-based and therefore 
unconstitutional. Just think about that. And think about what 
you told me about your ancestral lands. I was just thinking 
about it when the witnesses were testifying. We have this great 
movement of people--we sometimes call it the trail of tears, 
where thousands upon thousands of native people were moved from 
the East Coast to Oklahoma. Oklahoma became the dumping ground. 
So you have Cherokees who actually come from the Carolinas, 
living in Oklahoma. You have Seminoles living in Oklahoma. You 
have Apaches living in Oklahoma. Where are their ancestral 
lands?
    This can be multiplied time and again all over the country, 
so this ancestral land business is nonsense as far as I am 
concerned. Whoever speaks of that obviously does not know the 
history. When I became chairman of the committee, I decided, 
well, I am going to find out what this is all about. I should 
point out that this committee had only five members when I 
joined the committee in 1978--five, because no one else wanted 
to serve on the committee. That is how important it was. 
Everyone avoided service. They asked me to serve--this may 
sound facetious, but I am not being facetious. I was asked by 
the leader to serve and become chairman because he thought I 
looked like an Indian. [Laughter.]
    Hawaii has no reservations. We have no tribes, but I was 
told, why don't you serve; you look like an Indian. And yet 
this committee has held more hearings than any other committee 
in the Congress of the United States.
    [Applause.]
    The Chairman. And it is frustrating. We have passed more 
bills than any other committee in the Congress of the United 
States, with the help of people like Tim Johnson. He was in the 
House; he comes to the Senate. He does not stop his commitment 
and dedication. I understand your frustrations and I believe 
that the best solutions to problems in Indian country can be 
found in Indian country.
    [Applause.]
    The Chairman. There are very good people in Washington--
good-hearted people, well-intentioned people. But when you live 
in an air-conditioned house, a heated house, drive an air-
conditioned car, eat three meals a day, when you are able to 
send your kids to college--you somehow cannot appreciate the 
problems out here. Therefore, I decided to visit reservations. 
And I am not proud to tell you this, I am sad. I have visited 
more reservations than any other chairman of this committee. 
You know, the others should have done that, too. I have been to 
Alaska, above the Arctic Circle; risked my life flying around 
here. [Laughter.]
    The first school I visited was the school in Pine Ridge, 
and I had to address the student body out in the yard, because 
that school was condemned. It had asbestos. That was my 
introduction to Indian education. [Laughter.]
    On the Rosebud Reservation, I was with one of the community 
colleges. It was run by a great educator, Mr. Bordeaux. It was 
in a quonset hut. Now, it is a university. One of the top 
priorities of my committee is to establish a university for 
Native Americans.
    [Applause.]
    The Chairman. It makes good sense. The lawyers that you 
have are trained in non-Indian law schools. You should have 
lawyers who know something about Indian country. You should 
have doctors who are trained in Indian country, so they know 
about the problems. You don't have to tell me about the suicide 
rate. When I made my first visit to Alaska, I was horrified to 
find that Alaskan men, native men between 18 and 25 had a 
suicide rate 12 times that of the national average--12 times. 
And in Indian country, it was 10 times. So it is nothing new to 
me. We have tried our best. Then one of you said--we are not 
asking for a handout. I agree with you. You have paid your 
dues. For a long time, anthropologists have told us that there 
were at least 50 million Indians living on this continent; some 
say as high as a 100 million. Today, only a fraction survive. 
And you owned this place. You own a fraction of it now.
    So I know your frustration, and as I indicated earlier, 
more Indian men and women have put on the uniform an place 
themselves in harms way in all of our wars of the last century 
than any other ethnic group in the United States--more than the 
Irish, more than the Germans, more than the British, more than 
the Chinese, more than the Japanese. So you have paid your 
dues.
    Then you spoke of culture. One of the first things that I 
did as chairman of the Indian Affairs Committee was to do what 
the leaders were telling me. All these things that we have done 
is the result of advice from the leadership of Indian country. 
They told me one of the things lacking among the young men and 
women of Indian country was pride. So I said, let us establish 
a museum so that all people can learn of the great cultural 
legacy of your ancestors. In a couple of years, this museum 
will open on the national mall. It will be the National Museum 
of the American Indian.
    [Applause.]
    The Chairman. And we are certain that when a young Indian 
enters the museum and spends a couple of hours there, he will 
come out and say, ``I didn't realize my ancestors were that 
good. And equally as important, the non-Indian will go through 
the museum and he will say, ``they are very talented people; 
great leaders; great warriors.''
    Well, I hope my words are not considered unpatriotic. Let 
me tell you, it is the height of patriotism to speak up and be 
criticizing the highest authorities, including the President of 
the United States.
    Now I come to my final word. Well, you say the United 
States broke its promises--yes. The United States broke our 
treaties with the Indian nations--yes. The United States have 
short-changed you--yes. Then you have asked yourself, how can 
these seemingly small insignificant issues get recognized and 
fully funded? I did a study. And this was the result, that in 
your elections for tribal offices, the average turnout 
throughout the Nation was 85 percent--85 percent of your tribes 
turned out to elect their leaders, their chairmen, their 
president. Sometimes the voter turnout is as high as 99 
percent.
    At the same time, when the tribes were called upon to vote 
for the Governor of that State or the Senators or the 
Representatives, do you know what the national average was? 
Less than 8 percent. If I am a politician and if I learn that 
in this sovereign nation of 100,000 people, only 300 voters 
turned out, I am going to say to myself, why should I waste my 
time? Why should I go there? Their votes don't mean anything to 
me.
    That has to change. That is what is recognized in 
Washington. It is either that or money. And so I call upon you, 
you have it within your power to go up there and register, show 
the politicians that you can deliver 1,000 votes; that you can 
deliver 2,000 votes. They will listen to you. Oh yes, they will 
listen to you. If you have that kind of power, Leonard Peltier 
would not be languishing in prison. The pressure would be 
coming from all over the United States. So it is up to you. 
There are a lot of things you can do. If you leave it up to 
Tim, he is going to get the management of the trust funds 
straightened out. [Laughter.]
    [Applause.]
    Senator Johnson. Talk about raising a high standard, Mr. 
Chairman.
    The Chairman. Well, as you know, we have a task force right 
now. They are in the last meeting in Anchorage. They are 
meeting all over the United States. And they have just come up 
and said to me, they have given me a report saying we are not 
able to resolve a few questions. But out of ten major areas of 
controversy, they have resolved eight of them. So we are 
getting there. If you come out and show the rest of the United 
States that you can deliver votes, we will be able to fix up 
the schools with asbestos. We will be able to build a 
university. We will be able to see that people respect Indian 
country. One time, in order to protect your freedom and your 
rights, you used the arrow and the bow and the spear. Now, you 
have to use your votes.
    With that, I thank all of you for joining us this 
afternoon, and I join Senator Johnson in assuring you that your 
words of anger and frustration will be heard. We cannot promise 
that everything will be resolved, because we have been trying 
our very best to do it, but we will make steps. In the last 15 
years, Indian country has not lost an acre. We have gained 
acreage. We have had more water agreements. We have had more 
land agreements. And we are going to continue that.
    It is going to take more than my lifetime, but when I am 
gone, Senator Johnson is going to be there. [Laughter.]
    So with that, I thank you, and the hearing is adjourned.
    [Whereupon, at 4:15 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


  Prepared Statement of Ellsworth Chytka, Member, Yankton Sioux Tribe

    Good afternoon gentlemen. Thank you Mr. Chairman and members of the 
U.S. Senate Committee on Indian Affairs for coming to ``our country'' 
today and for giving us the opportunity to voice the goals, concerns 
and priorities of our people and our land with you. When people can 
truly speak openly of their concerns and issues, be heard, and trust 
that their message will be communicated to others and acted upon on 
their behalf by those is positions of power and authority than we have 
true representation--a democracy. Again, thank you for being here and 
listening.
    My name is Ellsworth Chytka. I am an enrolled member of the Yankton 
Sioux Tribe and am here representing Chairwoman Madonna Archambeau as 
spokesperson for the Ihanktonwan Sioux Nation. I am here today to 
discuss concerns of my people. I'd first like to let you know that this 
is very hard for me to put down oral history in written testimony. Our 
way as you know, since the beginning of time has always been oral. Oral 
history, culture and tradition. But it is important that I do so now so 
that the voices of my people and our ancestors past and all those we 
care about that have no voice can be heard. I come here today to voice 
our concerns, of which there are many. I will not have time to discuss 
all of them; therefore, I will concentrate on our most pressing issues.
    Our main concern and priority is the loss of our history, culture 
and our spiritual ways as guaranteed us by the Government in the 
treaties signed, bills and acts passed, etc. Gentlemen, our spiritual 
way is no different from yours and nothing to be feared. When we pray, 
we pray to Tonkshikala, God, by way of the Sacred Hoop. A hoop that 
represents all races. To the East it represents the yellow race, to the 
West represents the red race, the South represents the Black race, and 
the North, the white race. At the center is a little green circle, 
representing Mother Earth. From the center going out in the four 
directions are four equal length spokes that shows that we are no 
different than the trees, the grass, whatever. That our bodies come 
from Mother Earth and then as we sprout from there and grow we're now 
allowed to reach to the heavens and that circle is blue. So it is 
saying that we have one God for all divine beings and shows the 
connectedness of all of us to everything. We believe through our 
tradition, our history and our culture that it is our duty as human 
beings to represent all things: The trees, the grass, the deer, the 
eagle, the hawk, all these species are important for they too were 
created by the hands of God. In order to do this, we must retain our 
history, our culture and our sacred sites, our burial sites.
    There have been many laws created to protect these sacred sites--
the protection is no good, the laws are no good unless people enforce 
them. In my country, on the Yankton Sioux Reservation, there is no 
enforcement. The laws of NAGPRA are not enforced. Oral history has been 
repeatedly given to State and Federal Government officials to let them 
know where there are burial grounds, sacred sites, and our history and 
culture. But no one heeds these warnings and they continue to dig into 
our history and ancient burial sites. For us, in our history and 
culture and spiritual ways, these are not just bones, but the remains 
of our ancestors past. For my grandmother told me that many of these 
ancestors froze to death, starved to death, and fought to preserve this 
way so that there would be Native American people.
    I come to you asking for your help in protecting these areas. The 
lands that these sacred, cultural and burial sites are on have been 
passed down by our ancestors. These are the ones who are buried there, 
lived there, did ceremony there. I am here to speak for those--those 
that have no voice. When I was but a young boy my grandma told me, 
Takosha, grandson, in your lifetime they are going to tell you one 
person can't make a difference, but remember this, all it takes to 
start a fire is a little bitty spark. And you will be one of those 
sparks, and in being so, you will be a voice for those that have no 
voice, for they are humble, they are the unshika, they are the four 
legged, the two legged, the winged, those that swim in water, those 
that crawl upon the earth, those that slither upon the earth, those 
that live in the womb of Mother Earth, for these are all sacred for 
they too were created by the hands of God. Preserve these for your 
great grandchildren and their children, for they too have a right to 
see Mother Earth in its natural beauty. So as I speak here today, I 
speak not only for my people but I speak for all races of children that 
will be coming up, they too deserve to have clean water and clean air. 
They too deserve to live in a world of peace, a world of democracy and 
a world of justice. I ask you, where has democracy and justice been for 
us native people? It is not about money, it is not about programs, and 
it is about dignity. For on my reservation, the Elders can no longer 
take their grandchildren to the riverfront to talk of these ways and 
the sacredness of water--the blood of Mother Earth. And to share the 
stories of a proud and noble people that have lived here for thousands 
and thousands of years since time immemorial.
    I ask you, please help us. Why is it that we, the Indian people, 
who have given this country such riches in the land, the minerals, the 
oil, and all that we have given, why are we the poorest people in this 
Nation? Why is it that when this land was turned over to the State of 
South Dakota, it was never thought of to return this land to the Native 
people. With our wisdom and guidance in conjunction with your expertise 
in this field, we could cooperatively work together leaving the sacred 
sites alone and develop those lands that are not that way so that we 
may have rangers, rangerettes, biologists etc. Introducing the people 
of the world to the true history of the Native Americans. Let us be the 
guides and interpreters of our history, the conservationists, 
environmentalists, biologists of our land and not the people who don't 
live it.
    I am not a greedy man and I am not a selfish man, I was taught 
this. My grandma told me that in order to have your prayers answered, 
be unshika, be humble, be free of prejudice and anger. I have no anger 
for what has and is happening, I have hurt. For in my hurt I see the 
pains of the children who are now on drugs and alcohol. It is despair. 
It is because they have no history; therefore, they have no pride. 
Because even in the school system where 70-some percent of the children 
are Native American, there is no native language taught, no native 
history or native culture taught. Yes, we can teach a lot of it at 
home, but it is not only our youth that have lost their history and 
pride and culture--it is loss and despair that spans through 
generations of my people. If this is truly a democracy, why is it that 
other children who come from other countries are taught their language 
in their schools, but the native peoples who have always been here 
don't have this opportunity. This is a concern that weighs heavy on us.
    Why is it that we don't have representation? We are supposed to 
deal directly with Congress--why are we not allowed to do so? We are to 
be a nation within a nation as set forth in our treaties with you--why 
are we not treated as such? Why is it that again we meet on these terms 
voicing our concerns? We have been telling the Government of this great 
country our concerns for many many years, but no one hears us. Its like 
a voice lost in the wind. I've been taught and have always said, ``A 
country is only as great as its history''. Then let us share our 
history with the world, the true history, and the true culture. We 
believe very strongly in God. We believe that God created all things. 
That God is love and compassion. But where is there compassion for my 
people from the Government of this country? Why is it, again, that the 
Government of this country tries to ensure that treaties are enforced 
with other countries and they honor the treaties they make with other 
countries? And they want other countries, when they make a treaty with 
another country to honor those treaties. And they help restore lands 
back to peoples who have lost them for hundreds of years, example 
Palestine. Trying to get the homeland back for Palestine and the 
homeland back for Israel when in this great country of ours, they take 
ours away. There is something wrong with this. We have done everything 
asked of us. By population, we have sent more of our young men and 
women into battle to protect this great country. We stop at the stop 
signs, we get drivers license, we have tribal identification cards, and 
we vote, we do everything that has been asked of us. Why is nothing 
being done for us? You can give people money, but if they have no home, 
they have nothing. That land, and that reservation is our home. It was 
promised us by the Government that this would be our home for time 
immemorial that our children and grandchildren would be able to grow up 
there, they would be able to live happily and carry on their culture, 
their tradition and their spiritual ways. Gentlemen that is not 
happening. My people are losing their history, their culture, their 
way, because there is no democracy for us.
    Where is the Bureau of Indian Affairs trust responsibility to us? 
Who defends us? Only when we get enough money for an attorney are we 
defended. And then we run out of money because the average income in 
Indian country is between $5000-$7000 a year. Gentlemen, that is 
poverty. That is compared to Third World countries. This is going on in 
your great land. It is going on in the belly of America and it is the 
belly of America that feeds this country. And yet my people, many of 
them are hungry, many of them are homeless.
    Help restore the dignity of a great nation of people. You can do 
this by giving the laws that are created to help restore and protect 
and provide for us the legal teeth necessary for enforcement. Stand up 
for the laws that are created and have been created. Stand up with us 
and stand up for us. Let our voices be heard.
    I, in my life, have always made my own way. My family and I grow a 
garden, I have been taught to be sovereign, to be self-sustaining. And 
I do this and I practice this and I teach my children this. But many of 
my people don't know this way anymore because you (the government) give 
them crumbs. And they have gotten used to depending upon crumbs. It's 
time the native people received more than crumbs.
    Help us restore our land base. Help us to create opportunity for 
ourselves to no longer be dependent on the government. To help my 
people stand up once again. Our land once extended from Minneapolis., 
Minnesota down into Nebraska, Kansas, along the eastern shore of the 
Missouri up to Pierre, SD into North Dakota. And then gentlemen, by 
treaty, of which my people didn't even understand, it was taken away 
and reduced to some 400,000 acres. That was supposed to be our 
permanent home. Never to be taken from us, to be put aside so that our 
children and children's children, as our population grew, would be able 
to live upon these lands and live so that we would always have a home 
for all that we had given away. Well sirs, this land has been reduced 
from 400,000 acres to 200,000 acres and now the courts are trying to 
say that we only have jurisdiction over 1 square mile. How can this be 
in a democracy? Where was there justice for us? We don't have the money 
to defend ourselves in court. When I talk to the Elders they feel it 
was the Government who was supposed to protect us not be the ones to be 
protected from. When I grew up as a little boy, my grandma made me a 
promise, she told me, Tokosha, grandson, they took so much away from 
us, but we reserved this water and the land for you, this is your home. 
Gentlemen, you have made a liar out of my grandma. For you have taken 
this away.
    I come here today, humble, because I speak for so many. I wish they 
could be here speaking for themselves, but they feel they no longer 
have a voice because that voice has been stripped from them by powers 
much greater than they--the Government. They are beaten down. For so 
many no longer know their history and culture. Many of the young look 
upon themselves, being Indian, as bad, because that is what has been 
taught them. Remember who kept the pilgrims alive when they first 
landed here gentlemen. We provided them with food. They came here 
because of freedom of religion and freedom of speech. They took our 
freedom of religion away and just restored it not many years ago.
    When someone speaks out now about some of the wrongdoings in my 
homeland, they are labeled, as I have been, radical, antigovernment, 
unpatriotic. Why is it that a house where an outlaw lived who killed 
many citizens is preserved as a historical site? Or preserve in Sioux 
Falls, SD a cemetery, which was prime real estate in the middle of 
Sioux Falls because it was a non-Indian cemetery, a European cemetery? 
So that land, that cemetery was preserved. Meanwhile in Mitchell, SD, 
where there are known native burial mounds, development went ahead 
pushing the mounds to the side scattering the bones as they went. 
What's wrong with this picture? Where is human dignity? Where is there 
balance, equality in how we treat our peoples?
    I have never in my life asked for anything from the Government or 
from others, I have always made my way. But I come to you today, 
gentlemen, I beg of you, not for myself, but for my children and 
grandchildren and all the children of the future, whether it be the two 
legged, the four legged, the winged, those that swim in water, those 
that crawl upon the earth, those that slither upon the earth, those 
that live in the womb of Mother Earth the great creation of God, I beg 
you, help us to retain our culture and our history and out spiritual 
ways so that we can continue to stand up for those who have no voice, 
to preserve for your grandchildren and mine, a brighter future. A 
future that is no longer plagued by war and violence, but a future of 
dialog and democracy and a future of togetherness. I believe that this 
country can do that. I know it can. But before our country can go land 
heal the wounds of the world it must heal the wounds within its own 
country. And those wounds gentlemen have to do with the treatment of my 
Native American people.
    All my relatives, Mitakuyase.
                                 ______
                                 

Prepared Statement of John Yellow Bird Steele, President, Oglala Sioux 
                                 Tribe

    Chairman Inouye and members of the Senate Committee on Indian 
Affairs, my name is John Yellow Bird Steele. I serve as President of 
the Oglala Sioux Tribe of the Pine Ridge Indian Reservation. I welcome 
you to the Black Hills of South Dakota. Thank you for scheduling this 
important field hearing, to listen to the priorities and concerns of 
the elected representatives of the Indian tribes of the Great Sioux 
Nation. I also want to thank Senator Tim Johnson and Senator Tom 
Daschle for assisting with the scheduling of this important hearing. It 
is very important to us that the Committee on Indian Affairs visit our 
Treaty homeland, to discuss the priorities of the Sioux Tribes.
    At Pine Ridge, our priorities are too many to name. The Bureau of 
Indian Affairs 1997 Labor Force Report indicates that reservation 
population totals 39,734, with an unemployment rate of 79 percent. The 
2000 Census conservatively estimates the median household income at 
Pine Ridge at $17,814, as compared with $31,354 in South Dakota 
generally. The Census estimates poverty rates on the reservation at 43 
percent, although the tribe estimates that it is nearly twice that 
level. In South Dakota, 63 percent of the families on Temporary 
Assistance to Needy Families (TANF) are Native American, although we 
make up 18 percent of the population. We lag far behind the national 
average in per capita and family income, life expectancy, and in every 
economic and public health indicator.
    As we address our community and economic development needs, we find 
that many Federal agencies are actually impeding our efforts. I ask the 
Committee on Indian Affairs to take a proactive role in helping our 
tribe obtain accountability from the bureaucracy, and to enact 
legislation when necessary, in the following areas----
    No. 1. A Reservation Nursing Home.
    No. 2. Debt Relief from the Onerous Farm Service Agency Indian Land 
Acquisition Program loans to our tribe.
    No. 3. Reform of the Operation of the Bureau of Reclamation 
Angostura Unit.
    No. 4. Reform of the National Park Service Programs Affecting 
Indian Lands, namely the South Unit of the Badlands National Park on 
the Pine Ridge Indian Reservation.
    No. 5. Law and Order at Pine Ridge, including continuation of COPs 
Grant funding, and enhancement of the CIRCLE Project funding for multi-
disciplinary corrections on our reservation, and legislative repeal of 
the Supreme Court ruling in Nevada v. Hicks.
    At Pine Ridge, we have over 2,200 elders on the reservation. It is 
a top priority of my administration to develop a long-term health care 
facility for our elderly. Funding and state waivers are needed for the 
development of this facility. Clearly, our demographics justify this, 
and third-party health care reimbursements would be sufficient for the 
general operating costs. We would like to become a model in the long-
term health care of our tribal elders. Toward that end, I support 
Senator Johnson and Senator Daschle's bill, the South Dakota Tribal 
Nursing Facilities Act of 2002. I urge the committee to refer bill to 
the Senate for final passage.
    Second, the existence of our long-term tribal debts impede many 
worthwhile initiatives. Ironically, our largest and least cooperative 
creditor is the Federal Government itself. Our tribe makes annual 
payments to the Farm Service Agency of $870,000, under a series of Land 
Purchase notes entered in the 1980's. These notes provided funding to 
re-purchase lands confiscated from our tribe during the allotment and 
homestead era.
    When prices plummeted during the early 1990's and Federal debt 
relief became necessary for many operators, I contacted the then-FmHA 
for relief on the tribe's Indian Land Notes. Initially, the USDA 
General Counsel took the position that the Secretary of Agriculture 
lacked statutory authority to assist tribes--he stated that only non-
Indian farmers and ranchers were entitled to relief. Indeed, according 
to GAO, between 1988-97 non-Indian farmers and ranchers received $15.2 
billion in debt relief. During this time period, the amount of relief 
afforded to tribes was $0.
    Nevertheless, I pursued this issue with my attorneys, and the USDA 
reversed its position, and acknowledged that there is no statutory 
impediment to debt relief for tribes. Rather than assist our tribe, 
however, USDA went into a rulemaking. It took USDA 5 years to issue 
regulations for debt relief for Indian tribes. On January 9, 2001, FSA 
published regulations providing debt relief procedures for tribes. On 
November 5, 2001, our tribe filed our application for a write-down. We 
clearly meet the stringent criteria established in the USDA Final Rule. 
The BIA certified our data, as required in the regulation. However, 
incredibly, the USDA denied our application, rejecting BIA 
certification and dreaming up reasons for denying our request for a 
write-down that completely ignore the realities of Indian land 
management in South Dakota.
    A legislative solution is warranted. Our tribal attorneys have been 
working with counsel for the Senate Committee on Indian Affairs counsel 
on language for inclusion in the Committee's Technical Corrections 
bill, to be marked up on September 25, 2002. I request the inclusion of 
language in the Technical Corrections bill that ensures that the 
Secretary of the Interior's certification of tribal land lease and 
appraisal values are binding, for purposes of debt relief for Indian 
tribes under the Indian Tribal Land Acquisition Program.
    An important environmental issue to our tribe is the impact of the 
Bureau of Reclamation Angostura Unit. The BOR constructed Angostura Dam 
on the Cheyenne River just upstream from our reservation. The river is 
impounded and diverted to irrigate over 12,000 acres of land for the 
Angostura Irrigation District. This generates an economic benefit in 
South Dakota of $11.5 million annually. However, our reservation, the 
poorest in the United States, receives no benefit.
    To the contrary, our reservation environment is harmed. The water 
flow in the Cheyenne River is completely cutoff, although our tribe has 
longstanding claims to this water under the Winters Doctrine. Water 
quality is diminished. The fish in the Cheyenne River have lesions, 
from parasites caused by environmental stress. Traditional fruits and 
berries have diminished, as the riparian vegetation along the Cheyenne 
River has dried up with the water flows.
    The Congress has established environmental trust funds to remediate 
the harm caused by Reclamation projects, throughout the west. The Grand 
Canyon Protection Act, Pyramid Lake Settlement Act, and Central Valley 
Project Improvement Act provided Federal funding for fish and wildlife 
mitigation, and directed the Bureau of Reclamation to reform its 
operations at those projects, to reverse years of habitat loss and 
environmental degradation. Today, I ask Senator Johnson and the Senate 
Committee on Indian Affairs to develop legislation to remediate the 
harm to our water resources and environment, and to establish a Federal 
trust fund to provide the financial resources that are needed for 
environmental restoration and mitigation.
    The National Park Service has established the South Unit of the 
Badlands National Park, within the Pine Ridge Reservation. The tribe 
and NPS entered a Memorandum of Agreement in 1976, whereby the tribe 
agreed to permit Tribal lands to be used for the National Park, in 
exchange for assistance with economic and recreation development on the 
reservation. The Park Service has ignored and blatantly violated its 
commitments in the MOA. Our Tribal land is used for the Badlands 
National Park, yet we receive few of the promised benefits, due to the 
bureaucratic lies and neglect on the part of the Park Service. This 
causes a great deal of concern amongst many community members at Pine 
Ridge. The Park Service should be held accountable for the commitments 
outlined in the 1976 MOA with our tribe. I ask for your assistance in 
obtaining this accountability, and for the resources for economic and 
recreation development on our reservation, that was promised by the 
National Park Service nearly 30 years ago.
    Finally, law and order remains a major concern at Pine Ridge. The 
COPs program must be continued and enhanced. The CIRCLE Project, a DOJ 
demonstration project involving the Oglalas and only two other tribes 
nationwide, provides for inter-agency coordination to enhance 
corrections and community policing. Under the CIRCLE Project, we are 
constructing an inter-disciplinary corrections facility, combining 
detention with in-patient detoxification. Additional funds are needed 
under this creative project, with more flexibility from the DOJ in 
program administration.
    With respect to law and order, I urge this Committee to address the 
threat to Tribal sovereignty resulting from the decision of the U.S. 
Supreme Court in Nevada v. Hicks. This case subjects Indian tribes to 
state legal process, even in Indian country. This would have the effect 
of reducing our sovereignty, and opening our reservations to the 
jurisdiction of others.
    Our treaties reserved our valuable land base, and the right to 
sovereignty and self determination. We are not subdivisions of the 
states--we were here first. If we are to survive as a distinct and 
separate nation, we must govern ourselves according to our own laws. 
Yet we need your help, in developing our reservation infrastructure and 
Tribal administrative systems. Toward that end, I ask for your 
assistance in holding Federal agencies more accountable to our tribe--
from the National Park Service, Bureau of Reclamation, to the Farm 
Service Agency. These Federal agencies ignore the Treaty rights of our 
tribe, and their trust responsibility to assist our tribe.
    The enrolled members of the Oglala Sioux Tribe are proud to serve 
in the armed forces of our nation, especially in these troubling times. 
We serve at much higher rates than other Americans, in part because of 
our cultural heritage. Yet we are still waiting for our own country to 
stop fighting us. Thank you.
                                 ______
                                 

Prepared Statement of Michael B. Jandreau, Chairman, Lower Brule Sioux 
                                 Tribe

    Chairman Inouye, on behalf of the Lower Brule Tribe, it is a great 
honor to welcome you to South Dakota to discuss the needs of the Great 
Sioux Nation. We also greatly appreciate the hard work and leadership 
of Senator Tim Johnson as a member of this Committee and as a member of 
the Committee on Appropriations.
    Mr. Chairman, as you have already heard today, the needs of the 
Great Sioux Nation are many. Our unemployment rate is far too high; our 
schools and infrastructure are in need of repair; our life expectancy 
is too low; and our infant mortality rate is closer to that of a third 
world nation than that of the United States. It is painful to see every 
day. We simply must address these needs and also develop a private 
sector on the reservation to improve the quality of life for everyone.
    With your permission, however, as a member of Secretary Norton's 
Task Force, I would like to focus my attention on the current trust 
fund reform initiative. As you may know, the tribal members of the 
Secretary's Task Force and the Department of Interior have reached an 
impasse. The Department has suggested the establishment of an Under 
Secretary for Indian Affairs. I would personally prefer a Deputy 
Secretary of Indian Affairs, but the title of that person is not the 
central issue. The central issue is threefold:
    No. 1. The duties and responsibilities of that official.
    No. 2. The standards to be applied by that official.
    No. 3. The ability of Indian people to hold that official, and the 
United States of America, accountable for any breach of their fiduciary 
responsibility.
    If we merely change the title of the responsible official without 
clarifying their responsibilities and the standard to be applied, then 
we have simply moved the boxes around, but not enacted true trust fund 
reform.
    I do not believe that raising the issue of ``standards'' is adding 
a new and different issue. Rather, the standards are central to trust 
fund reform and are indeed the essence of trust fund reform.
    The Lower Brule Sioux Tribe has endorsed S. 2212 introduced by 
Senators McCain, Johnson and Daschle. I believe this legislation would 
provide an excellent framework for Committee consideration and, with 
some amendments, deserves the support of the Indian Affairs Committee.
    Mr. Chairman, it is also my belief that time is of the essence. The 
Department of Interior is proceeding with trust fund reform. The 
Supreme Court is about to consider at least two very important Indian 
cases. As you know, this Supreme Court has been looking to the Congress 
for very specific guidance on a variety of issues. The Court has been 
looking for express statutory authority for the actions taken by 
officials of the executive branch. It is important that the Congress 
establish by statute the fiduciary standards by which to judge the 
actions of the United States of America with regard to Indian tribes 
and Indian people.
    Finally, Mr. Chairman, it is my hope and recommendation that the 
Congress prohibit the Department of the Interior from using any 
appropriated funds to implement trust fund reform until S. 2212, as 
amended, is enacted.
    In closing, allow me to again express my deep appreciation to both 
of you for bringing the Committee to South Dakota. Chairman Inouye, you 
have been held in the highest possible regard by Indian country for a 
very long time and we appreciate everything that you and Senator 
Johnson have done, and are trying to do, for Indian people. Thank you. 
I would be pleased to answer any questions.
                                 ______
                                 

   Prepared Statement of Jesse Taken Alive, Chairman, Tetuwan Oceti 
         Sakowin Treaty Organization, Standing Rock Sioux Tribe

    Honorable Chairman Inouye, members of the committee. I want to 
thank you for the opportunity for individuals to submit written 
testimony on the goals and priorities of the South Dakota Tribes.
    In all that government does, the quality of life that is created 
has been the measure of success for the elected leadership of 
government. The life and treatment of the Native American populations 
here in this great country is no secret, and is nothing to be proud of. 
The inability to effectively deal with this situation stems from 
Federal law and governmental policy that is in direct conflict with the 
Treaties signed and ratified by the United States of America and the 
agreed to by the leadership of the Native American populations, who 
have lived here since time immemorial. The result is evident in the 
negative statistics across the board that are the telling truth in the 
quality of life for the Native Peoples of this great country. The 
situations addressed prominently in the scope of funding are all found 
in the Fort Laramie Treaty of 1868, signed and agreed to April 1868, 
Ratified & Proclaimed in 1869.
    The Fort Laramie Treaty of 1868 simply states: ``The United States 
hereby agrees to furnish annually to the Indians the physician, 
teachers, carpenter miller, engineer, farmer, and blacksmiths, as 
herein contemplated, and that such appropriations shall be made from 
time to time, on the estimate of the Secretary of the Interior, as will 
be sufficient to employ such persons.''
    Mr. Chairman, the overall health and health care are at an 
immediate crisis situation. There are diseases prevalent among the 
native populations that are a direct result of the continual neglect to 
honor the Treaties made with the Great Sioux Nation. It is time to 
effectively deal with this situation. We must, on a nation to nation 
basis, convene and revisit the provisions of the Treaties, develop 
plans to address them, and honorable appropriate adequate funding to 
implement them. As well as, having a monitor agency to make appropriate 
revisions in the plans, as agreed upon by both parties. The history of 
the Federal Government's policies and laws that have been made to 
address the Native American populations needs to stop. It needs to 
stop, in order to save a ``Nation.''
    Article 2 of the Fort Laramie Treaty of 1868 set apart for the 
``Absolute and undisturbed use and occupation,'' land. Article 3 of 
said Treaty allows for the accountability of this land to commence. 
Article 6 of the same Treaty allows for the implementation of a ``Sioux 
Land Book.'' This book was to be available and subjected to inspection.
    What these articles implied to the Great Sioux Nation and its 
members was local control and local accountability. The United States 
government is now embroiled in an accounting mess that, once again, is 
a result of neglect of effectively implementing this agreed to section 
of the Treaty. The U.S. Government took the duties and turned them over 
to the Interior. The Interior took these duties and consolidated them 
with all the Native Populations of the United States, and found these 
duties to be overbearing. Rather than admit to this oversight and 
correct them. The government ignores it and history only repeated 
itself. Only this time with the Indians asking for, ``What happen to 
our money?''
    The mismanagement of that sum of money, which has been estimated in 
the billions of dollars could very well be a contributing factor in the 
present day crisis facing Native Americans on all fronts.
    Out of this social, domestic turmoil, leaders have emerged, and 
with these Ratified, Legal Documents in hand, we are knocking on the 
doors of America asking for accountability, and America needs to be 
accountable.
    Trust fund management and it's reform needs to include a mechanism 
that is Native People based or where Native Americans are seated, to 
address the intent and legalities of the various trust funds in place 
for the tribes of the Great Sioux Nation. The Federal Government of the 
United States needs to realistically deal with the rejection of the 
monetary offer for the Black Hills and surrounding Treaty lands. Upon 
the Supreme Court of these United States ruling that this case was 
unjust, great minds would of have come together and dealt with the 
issues of what could be done, as opposed to what can't be undone. Once 
again, a nation is at risk.
    The Fort Laramie Treaties of 1851, and 1868 gave us boundaries and 
land area. The boundaries were natural water ways and a mountain range 
by which replenishing waters would come each spring. Water rights and 
securing a future for our generations to come are under attack. Our 
rejection of the monetary settlement offer for these lands and 
boundaries is an important issue and must be taken seriously. There are 
truly some things that money can't buy!! We not are here to be 
millionaires, but to ask only for what has been agreed to in the 
Treaties, and to live our lives and lifestyle, in the land of our 
grandfathers, that was given to us by the creator.
    The history of neglect has spawned a life style that is foreign to 
Native America. We have and are experiencing a social upheaval not 
nature to the societies of the Great Sioux Nation. When we agreed to 
the Treaty the phrase in Article 2 of ``Absolute and undisturbed use 
and occupation'' had a lot of meaning. It was agreed upon because we 
have and had always felt safe in that area of this world. It is the 
center of all that is, our spiritual home, the Black Hills. It had our 
economy, food from the land that today health experts would be envious 
of. A portion of the Great Buffalo Herd lived in this area and the 
buffalo was a giver of our life and economy. The water of life flowed 
around this area in its purest form, and from the ground for special 
use.
    There was plenty for the time of the Treaty and the generations 
that would benefit from this agreement. There are other provisions of 
the Treaty of 1868 that would compliment this area and allow for the 
evolving of the Great Sioux Nation in their time not in the way history 
can demonstrate. There is a present need to once again feel safe on our 
lands. The Treaty has a ``bad man clause- that speaks of Federal trust 
responsibility.
    In closing, terrorists have brought the ills of the world to our 
doorstep. Our sons and daughters have responded in respect to intent of 
freedom. We must, as Nations, convene and ensure that the freedoms we 
both agreed to are honored. We must for a Nation is at stake. I want to 
thank you again for this opportunity to submit written testimony from 
individuals.
                                 ______
                                 

  Prepared Statement of Lyle Jack, Member, Oglala Sioux Tribal Council

    My name is Lyle Jack. I am a member of the Oglala Sioux Tribal 
Council. I am the chairman of the Tribal Council's Education Committee 
and I am also a member of the Tribal Council's Health and Human 
Services Committee. I want to thank you for this opportunity to present 
to you some issues that are of grave concern to me and the to students 
of the Pine Ridge Sioux Indian Reservation.
    My primary priority and concern is the operation and management of 
the Bureau of Indian Affairs Office of Indian Education Programs. 
During the past 3 years the OIEP has totally disrupted the operation of 
the Pine Ridge School by retracting management decisions that were 
imperative to planning by the Oglala Sioux Tribal Council and the local 
school board.
    These management decision reversals have had an adverse effect upon 
the delivery of services to the students who attend this school. The 
operation of the school is a local effort yet the problems in 
management are not local but are within the BIA's organization. 
Decisions which are made or not made can emanate from Washington, DC, 
Albuquerque, NM, and/or Aberdeen, SD.
    These management issues include the selection of personnel, 
facilities, and the overall delivery of educational services. The 
disruption of services on the local level is caused by decisions made 
at other sites without consideration for local input. Specifically 
there are three areas that are of immediate concern. The first is the 
issue of overcrowding. The high school portion of the school was 
designed for 250 students. There are currently 498.
    Last year the Oglala Sioux Tribe agreed to consent to the 
destruction of the boys' dormitory. This consent was by tribal 
resolution. Included in that resolution was a request for 10 portable 
classrooms. Three years ago the school was informed that four portable 
classrooms would be provided to alleviate this situation. This number 
was reduced to two portable classrooms and to this date the school has 
not received any portable classrooms.
    The second issue is related to the residential portion of the 
school. One of the school's dormitories was temporarily closed last 
winter due to safety deficiencies. The local budget has never been 
sufficient to adequately maintain these facilities. OIEP admitted the 
lack of resources and finally provided the fiscal resources to allow 
the school to meet safety standards. The school was then informed that 
it would be provided with the construction of a new state-of-the-art 
dormitory.
    Plans were then made for the destruction of the old dormitories and 
stop orders were issued for the removal of asbestos and the relief of 
other safety items. The school was then informed that the new dormitory 
would not be constructed and as of this date we now have dormitories 
that do not meet safety standards.
    We have a waiting list for the residential portion of the school 
and parents are faced with the prospect of sending their children to 
off-reservation boarding schools. We were informed that the dormitory 
decision was related to the school's designation as a ``therapeutic 
model'' and that the Office of Management Budget and the Assistant 
Secretary for Indian Affairs had made the decision to rescind the 
school's therapeutic model designation and thus the new dormitory was 
also canceled. The therapeutic model was a pilot project and was 
terminated by the OIEP for ``lack of progress.''
    The President of the Oglala Sioux Tribe, John Yellow Bird Steele, 
met with the Assistant Secretary for Indian affairs, Neil McCaleb, to 
rectify this dormitory situation. The Assistant Secretary informed Mr. 
Steele that his office had no input into this decision.
    We, the Oglala Sioux Tribal Council, demand an answer. These 
decisions have caused incredible hardship upon parents and guardians 
not to mention our local decisionmakers who are responsible for the 
operation of this school.
    The third issue is that the OIEP within the last 10 days has 
directly intervened in the operation of this school. Ostensibly the 
purpose was to take corrective action for the improvement of services 
to the students. This action was conducted without any notification to 
our local authorities especially the Oglala Sioux Tribal Council. This 
lack of simple courtesy is a huge demonstration of the insensitivity to 
the principle of government to government relations. Furthermore we are 
capable of resolving our problems on our reservation.
    On July 21, 2002 our school team, our Education Line Officer, and 
our tribal education director met with Mr. William Mehojah, Director of 
OIEP and Mr. Ed Parisien, Deputy Director of School Operations. The 
team presented a strengthened school plan that was based upon the 
original therapeutic model and addressed the so-called deficiencies 
that were identified in the OIEP sanctioned report on the Pine Ridge 
School. The team also made it clear that some items listed in the 
``lack of progress'' report were actually OIEP's problems that were 
beyond the control of the school.
    We were taking our corrective action to solve our issues. OIEP's 
intervention was pre-emptive and unnecessary. We now have a situation 
where the staff of the school is unclear as to the intent of OIEP in 
relation to the dormitory and the long term leadership of OIEP on the 
Pine Ridge Sioux Indian Reservation. I might add that the temporary 
OIEP Education Line Officer is unfamiliar with the Pine Ridge 
reservation and that besides the Pine Ridge School we have six BIA 
grant schools that are diverse in their respective demographics and 
politics. The lack of a local tribal member to serve as the Education 
Line Officer is disadvantageous to not only the Oglala Sioux Tribe but 
to the best interest of the OIEP itself.
    The three areas that I have mentioned are major mistakes on the 
part of the OIEP. The results of these decisions are causing 
consequences that are harmful to our tribe. It is not to late to undo 
these decisions. However I am compelled to seek answers as to why OIEP 
has progressed through this litany of errors and the purpose for 
causing the Oglala Sioux Tribe to be placed in this situation. I am 
asking for a congressional inquiry into the operation and management of 
OIEP to find the answers to my questions and to cause the OIEP to 
cooperate with the Oglala Sioux Tribe to resolve the dormitory 
situation at the Pine Ridge School.
[GRAPHIC] [TIFF OMITTED] T2939.001

[GRAPHIC] [TIFF OMITTED] T2939.002

[GRAPHIC] [TIFF OMITTED] T2939.003

[GRAPHIC] [TIFF OMITTED] T2939.004

[GRAPHIC] [TIFF OMITTED] T2939.005

[GRAPHIC] [TIFF OMITTED] T2939.006

[GRAPHIC] [TIFF OMITTED] T2939.007

[GRAPHIC] [TIFF OMITTED] T2939.008

[GRAPHIC] [TIFF OMITTED] T2939.009

[GRAPHIC] [TIFF OMITTED] T2939.010

[GRAPHIC] [TIFF OMITTED] T2939.011

[GRAPHIC] [TIFF OMITTED] T2939.012

[GRAPHIC] [TIFF OMITTED] T2939.013

[GRAPHIC] [TIFF OMITTED] T2939.014

[GRAPHIC] [TIFF OMITTED] T2939.015

[GRAPHIC] [TIFF OMITTED] T2939.016

[GRAPHIC] [TIFF OMITTED] T2939.017

[GRAPHIC] [TIFF OMITTED] T2939.018

[GRAPHIC] [TIFF OMITTED] T2939.019

[GRAPHIC] [TIFF OMITTED] T2939.020

[GRAPHIC] [TIFF OMITTED] T2939.021

[GRAPHIC] [TIFF OMITTED] T2939.022

[GRAPHIC] [TIFF OMITTED] T2939.023

[GRAPHIC] [TIFF OMITTED] T2939.024

[GRAPHIC] [TIFF OMITTED] T2939.025

[GRAPHIC] [TIFF OMITTED] T2939.026

[GRAPHIC] [TIFF OMITTED] T2939.027

[GRAPHIC] [TIFF OMITTED] T2939.028

[GRAPHIC] [TIFF OMITTED] T2939.029

[GRAPHIC] [TIFF OMITTED] T2939.030

[GRAPHIC] [TIFF OMITTED] T2939.031

[GRAPHIC] [TIFF OMITTED] T2939.032

[GRAPHIC] [TIFF OMITTED] T2939.033

[GRAPHIC] [TIFF OMITTED] T2939.034

[GRAPHIC] [TIFF OMITTED] T2939.035

[GRAPHIC] [TIFF OMITTED] T2939.036

[GRAPHIC] [TIFF OMITTED] T2939.037

[GRAPHIC] [TIFF OMITTED] T2939.038

[GRAPHIC] [TIFF OMITTED] T2939.039

[GRAPHIC] [TIFF OMITTED] T2939.040

[GRAPHIC] [TIFF OMITTED] T2939.041

[GRAPHIC] [TIFF OMITTED] T2939.042

[GRAPHIC] [TIFF OMITTED] T2939.043

[GRAPHIC] [TIFF OMITTED] T2939.044

[GRAPHIC] [TIFF OMITTED] T2939.045

[GRAPHIC] [TIFF OMITTED] T2939.046

[GRAPHIC] [TIFF OMITTED] T2939.047

[GRAPHIC] [TIFF OMITTED] T2939.048

[GRAPHIC] [TIFF OMITTED] T2939.049

[GRAPHIC] [TIFF OMITTED] T2939.050

[GRAPHIC] [TIFF OMITTED] T2939.051

[GRAPHIC] [TIFF OMITTED] T2939.052

[GRAPHIC] [TIFF OMITTED] T2939.053

[GRAPHIC] [TIFF OMITTED] T2939.054

[GRAPHIC] [TIFF OMITTED] T2939.055

[GRAPHIC] [TIFF OMITTED] T2939.056

[GRAPHIC] [TIFF OMITTED] T2939.057

[GRAPHIC] [TIFF OMITTED] T2939.058

[GRAPHIC] [TIFF OMITTED] T2939.059

[GRAPHIC] [TIFF OMITTED] T2939.060

[GRAPHIC] [TIFF OMITTED] T2939.061

[GRAPHIC] [TIFF OMITTED] T2939.062

[GRAPHIC] [TIFF OMITTED] T2939.063

[GRAPHIC] [TIFF OMITTED] T2939.064

[GRAPHIC] [TIFF OMITTED] T2939.065

[GRAPHIC] [TIFF OMITTED] T2939.066


</pre></body></html>
